<html>
<title> - SOUTH SUDAN'S PROSPECTS FOR PEACE AND SECURITY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                      SOUTH SUDAN'S PROSPECTS FOR 
                           PEACE AND SECURITY

=======================================================================

                                 HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 27, 2016

                               __________

                           Serial No. 114-208

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               ___________
                               
                               
                     U.S. GOVERNMENT PUBLISHING OFFICE
99-948PDF                     WASHINGTON : 2016                                                   
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4126312e012234323529242d316f222e2c6f">[email&#160;protected]</a>  
                                
                                
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                
                                ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
DANIEL DONOVAN, New York
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Donald Booth, Special Envoy to Sudan and South 
  Sudan, U.S. Department of State................................     6
Mr. Bob Leavitt, Deputy Assistant Administrator, Bureau for 
  Democracy, Conflict, and Humanitarian Assistance, U.S. Agency 
  for International Development..................................    18
Mr. John Prendergast, founding director, Enough Project..........    41
Mr. Matt Wells, program officer, Center for Civilians in Conflict    53
Luka Biong Deng Kuol, Ph.D., global fellow, Peace Research 
  Institute Oslo.................................................    64
Augustino Ting Mayai, Ph.D., director of research, The Sudd 
  Institute......................................................    86

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Donald Booth: Prepared statement...................     9
Mr. Bob Leavitt: Prepared statement..............................    20
Mr. John Prendergast: Prepared statement.........................    44
Mr. Matt Wells: Prepared statement...............................    56
Luka Biong Deng Kuol, Ph.D.: Prepared statement..................    67

                                APPENDIX

Hearing notice...................................................   100
Hearing minutes..................................................   101
Mr. John Prendergast: Information on the Frontier Security Group.   102

 
                      SOUTH SUDAN'S PROSPECTS FOR 
                           PEACE AND SECURITY

                              ----------                              


                       WEDNESDAY, APRIL 27, 2016

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:02 p.m., in 
room 2200 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. And good afternoon to everybody and thank you 
for being here.
    On July 9, 2011, the Republic of South Sudan became the 
world's newest nation. In a referendum held in January of that 
year, nearly 99 percent of the population voted to become 
independent from the Republic of Sudan. Although there are 
those who felt the South Sudanese were not prepared for 
independence, the people of that country believed otherwise and 
rejoiced in severing their ties to the regime in Khartoum after 
many years of war and efforts to undermine the South.
    Unfortunately, the people's rejoicing was short-lived. The 
lack of infrastructure and transparent governance frustrated 
any hope of progress for this fledgling nation. Despite 
significant arable land, agricultural production did not 
increase largely due to a lack of transportation and power 
infrastructure needed which also prevented significant mining 
or manufacturing operations.
    Nearly 5 years after independence, South Sudan remains 
heavily dependent on its oil production which represents as 
much as 98 percent of its revenue. As the price of oil has 
fallen worldwide, South Sudan became the producer earning the 
least from each barrel of oil, estimated between $9 and $12 a 
barrel. Although an increase in agricultural would have helped 
bridge the gap, the displacement of so many farmers, the 
continued insecurity, and the recent spread of violence to the 
agricultural heartland prevents any benefits agriculture could 
have provided. Consequently, South Sudan has projected that a 
negative growth rate this year of nearly 8 percent.
    More than 2.4 million people have been displaced by the 
conflict just since December 2013; 706,600 of them are now 
refugees in neighboring Sudan, Ethiopia, Uganda, and Kenya. 
United Nations officials estimate that more 6 million people 
need humanitarian aid and nearly a quarter of the country's 
population, or 2.8 million, are facing life-threatening hunger.
    Bob Leavitt, Deputy Assistant Administrator for USAID will 
testify today that ``half of all Sudanese--meaning 6.1 million 
people--are in need of humanitarian assistance or protection 
this year.'' And, ``Over half of all children aged 6 to 15--or 
1.8 million children--are not in school in South Sudan, the 
highest proportion in any country.''
    Efforts to address the needs of the South Sudanese people 
have been blocked by various fighting forces--at least 52 
relief workers have been killed since the civil war began--and 
according to United Nations there are numerous reports of 
harassment, threats and active hostility toward aid workers. 
Apparently, targeted attacks to prevent aid from reaching 
certain communities have meant that far too many people in need 
of help cannot be helped even in U.N. compounds which have also 
come under attack.
    Greg Simpkins and I were scheduled to visit South Sudan on 
a trip that unfortunately coincided with the eruption of the 
violence in December 2013, so that trip was cancelled at the 
request of the State Department. But for more than 20 months 
since, fighting between forces led by Salva Kiir and former 
Vice President Riek Machar continued without stoppage despite 
several ceasefire agreements. In fact, the targeting of 
populations and oil facilities became worse the closer the 
signing of a final agreement came as both sides competed for 
territory before agreeing to halt hostilities.
    Unspeakable human rights violations have occurred as 
documented by the African Union Commission of Inquiry on South 
Sudan, and U.N. reports have corroborated that. The interethnic 
violence, Dinka-Nuer conflict, has now devolved into 
interethnic animosity involving clans within larger ethnic 
groups.
    Matt Wells of the Center for Civilians in Conflict includes 
a very touching and sad, tragic interview with Rebecca, a 29-
year-old victim who lost her husband. She says in part, ``[t]he 
government soldiers came in and were looking for Nuers; they 
killed all the Nuers they found. When the [armed opposition] 
attacked, they killed the Dinkas and other tribes . . . [o]ur 
dead relatives will never come back. But we need to know [those 
responsible]. Then we can decide to forgive them or send them 
to prison. I want to know why they killed innocent civilians, 
why did they kill our children,'' she says. ``The government 
must recognize our suffering [and] rebuild our homes. Once [our 
homes are rebuilt,] our children [are back in] school, we have 
medicine, and the guns have stopped banging in my head, I will 
have [what I need.]''
    We should be honest that both President Salva Kiir and 
returning Vice President Machar don't control all the forces 
still in the field. The burgeoning of militias into the 
national army has produced units more loyal to their commanders 
than to the government. Meanwhile, Machar's hastily assembled 
rebellion also lacks strict chain of command, therefore 
achieving a lasting end to the fighting will take more than a 
peace accord that has been signed by these two men.
    The United States has played a major role in ending South 
Sudan's long and destructive war with Sudan and was 
instrumental in its independence. Since then, the U.S. 
Government has been the leading donor contributing 
approximately $1.5 billion in humanitarian aid.
    Today's hearing will examine the role of the United States, 
the role it has played and continues to play in search of 
peace, stability, and prosperity. And I want to thank our very 
distinguished witnesses for the role they have personally 
played in that effort. The State Department will describe the 
successes and failures hopefully in the nearly 5-year effort. 
Witnesses on both panels will explain how the optimism of 2013 
devolved to the barbarism we are trying to overcome today.
    Let me just say to all my colleagues that we look forward 
to their testimony. I would like to now yield to Eliot Engel, 
the ranking member of the full Committee on Foreign Affairs, 
for any opening comments he might have.
    Mr. Engel. Thank you very much, Chairman Smith. As the 
ranking member of the full committee, I want to once again 
thank you for calling this hearing and thank you for the good 
work that you do. Ambassador Booth, Mr. Leavitt, thank you for 
your service and for your testimony today. The two of you know 
as well as anyone the dire situation facing South Sudan.
    Since the war broke out more than 2 years ago, both 
parties, parties on both sides, have committed gross violations 
of human rights and humanitarian law. Approximately 16,000 
child soldiers have been recruited mostly by the rebel forces, 
ethnically targeted rape has been prevalent on both sides, and 
in February, government forces were involved in an attack on 
the U.N. protection of a civilian's camp at Malakal. At least 
30 internally displaced persons lost their lives in this 
attack, more than 120 were injured, and about one third of the 
camp was burned to the ground.
    The humanitarian picture in South Sudan is truly 
catastrophic. Nearly 3 million people are facing starvation, 
yet only 17 percent of the funding needed to respond to this 
crisis has been provided. Amid these reports I was glad to hear 
that this morning the United States announced more than $86 
million in additional humanitarian assistance to help affected 
people in South Sudan.
    What makes this a crime and really a pity is that we had 
such high hopes when South Sudan was formed and thought that 
would be the beginning of a new era in the area, instead 
unfortunately things have gotten worse.
    Yet even those trying to provide relief face danger. At 
least 52 aid workers have been killed since the onset of 
violence in December 2013, and many others have been harassed, 
threatened, and in some cases savagely beaten. Humanitarian 
convoys are subject to extortion at multiple illegal 
checkpoints throughout the country, multiplying the cost of the 
humanitarian response the people of South Sudan desperately 
need.
    On top of everything, I have deep misgivings about the 
peace deal meant to put an end to this violence. The peace 
agreement signed in August is a bargain negotiated by the 
political elites who created this conflict in the first place. 
I fear that it essentially resets the political landscape to 
what it was at the outset of the conflict and has little to do 
with the millions of people who have been affected.
    So we need to ask ourselves what can we do to support 
reconciliation at the local and national levels to help prevent 
new flare-ups of violence. This is especially important in 
light of the government's decision to press ahead with the 
division of the country's 10 states into 28 states, a move that 
has created localized conflicts in parts of the country that 
had been relatively peaceful.
    Moreover, I worry that warring parties are simply paying 
lip service to issues of justice, reconciliation and 
accountability, thereby ensuring that the cycle of impunity 
will continue. Contrary to the intent of the peace agreement, 
the manmade conflict in South Sudan is expanding and the 
country's people of course deserve better.
    We know there aren't a lot of good options, but in my view 
we should go forward with an arms embargo. For months the 
United States has considered such a measure to ensure 
compliance with the peace process. However, with the return of 
opposition leader Riek Machar to Juba yesterday, implementation 
of such a plan has lagged behind schedule. All the while a 
supply of arms and ammunition to both sides has prolonged and 
escalated the conflict.
    I am glad Mr. Machar has returned and consider this an 
important but modest step forward. Much more needs to be done, 
and I am concerned that more weapons entering South Sudan will 
only keep the parties from making further progress. We 
shouldn't think of an arms embargo as a point of leverage but 
as a means by which to prevent further suffering. The U.N. 
Panel of Experts on South Sudan has endorsed this approach, and 
Ambassadors from Angola, Senegal, Spain, France, New Zealand, 
and the UK, all members of the Security Council, have indicated 
support.
    So this is clearly far from a solution, but I think it puts 
us on the right side of history and could help move this 
situation in the right direction. I look forward to our 
witnesses and seeing what they have to say about what they 
think can be done, and again I want to applaud our chairman for 
shining a light on this difficult challenge.
    I am going to have to leave in a few minutes. I have a 
longstanding appointment with one of the Ambassadors, but I 
will be reading the transcript of the hearing and will keep in 
touch with Mr. Smith and work together with him as we have for 
many, many years. So I thank you, Mr. Chairman, and I thank the 
witnesses as well.
    Mr. Smith. I want to thank Ranking Member Engel for his 
excellent statement, for his leadership, and for passage of his 
important bill yesterday on the floor. Congratulations on that.
    I would like to now yield to Mr. Donovan from Staten 
Island.
    Mr. Donovan. Mr. Chairman, I yield my time so we have more 
time to hear from the witnesses, but I appreciate your offer. 
Thank you, sir.
    Mr. Smith. I would like to yield to Mr. Cicilline.
    Mr. Cicilline. Thank you, Chairman Smith, and I also want 
to acknowledge the leadership of Ranking Member Bass, and thank 
you for calling this hearing on South Sudan's prospect for 
peace. And thank you to our witnesses, and I look forward to 
hearing from both of you on the situation in South Sudan.
    Like most observers I was optimistic when after almost 40 
years of war between Sudan and the South Sudanese, which 
claimed more than 2\1/2\ million lives and displaced more than 
4\1/2\ million people, South Sudan emerged in 2011 as the 
world's newest country. However, the civil war that has ravaged 
the country since 2013 has had a devastating impact.
    Today, South Sudan faces another post-conflict 
reconciliation process, massive and chronic humanitarian needs, 
high level corruption, and widespread displacement of its 
population. This conflict has displaced more than 2.3 million 
South Sudanese since December 2013, and the U.N. estimates that 
over 6.1 million people need humanitarian aid and 2.8 million 
people face life-threatening hunger.
    The human rights situation is horrific, with assertions 
from the U.N. and from U.N. officials that targeted attacks 
against civilians and U.N. personnel may constitute war crimes 
or crimes against humanity. The U.N. Mission in the Republic of 
South Sudan reports that gross violations of human rights and 
serious violations of humanitarian law have occurred on a 
massive scale with civilians often targeted along ethnic lines. 
And UNICEF estimates that the warring sides have recruited as 
many as 16,000 child soldiers and that conflict related sexual 
violence against civilians is prevalent.
    There are many serious challenges that remain as South 
Sudan moves toward implementing its peace agreement. I look 
forward to hearing from our witnesses about the prospect for 
peace and what the United States and the international 
community can do to improve prospects for peace in the country 
and begin to tackle the enormous humanitarian needs of the 
South Sudanese people. And with that I thank you and I yield 
back.
    Mr. Smith. Thank you, Mr. Cicilline. I would like to yield 
to Mr. Rooney.
    Mr. Rooney. Thank you, Mr. Chairman. I would just like to 
say I was fortunate enough to be able to address Secretary 
Kerry when he testified before our Appropriations subcommittee, 
and I asked him if the U.S. is willing to hold war criminals in 
South Sudan accountable by imposing additional targeted 
sanctions and an arms embargo to show that we are actually 
serious about the peace agreement and that violating its terms 
will not be tolerated. I felt like the U.S. was about to get 
serious when he responded very assertively that the 
international community is absolutely prepared to put into 
place individual sanctions for a range of things that may have 
been committed in the course of the war.
    But since then, unfortunately, not one additional person 
has been subject to sanctions or an asset freeze by the U.N. or 
by the U.S. Russia continues to block U.S. and UK motions at 
the U.N. Security Council, as you know, for an arms embargo 
with seemingly no pushback from the administration. Also, the 
February attack on a protected civilian site was without 
question facilitated by government soldiers and aligned forces.
    This was a deliberate attack on a U.N. base, sanctioned by 
the Government of South Sudan, with its soldiers killing over 
30 and injuring over 100, deliberately and systematically 
burning down sections of the camp occupied by ethnic groups 
aligned with the opposition. Government forces turned to ash 
3,700 civilian shelters, along with clinics, water tankers, 
nutrition centers, schools, et cetera.
    I hope that you address some of these issues in your 
testimony here today. And with that, Mr. Chairman, I thank you 
for the opportunity to make a statement and I yield back.
    Mr. Capuano. First, I just want to appreciate the 
opportunity to sit with you and to listen. I have been involved 
with the Sudan issue for awhile. Welcome, Ambassador Booth and 
Mr. Leavitt. They do great work. And with that I am going to 
yield back and listen to them.
    Mr. Smith. Thank you very much, and thank you for coming, 
for your longstanding leadership on Sudan.
    I would like to now welcome our two very distinguished 
representatives from the administration, who are themselves 
leaders when it comes to Sudan. Ambassador Donald Booth was 
appointed U.S. Special Envoy to Sudan and South Sudan on August 
28, 2013. He previously served as Ambassador to Ethiopia, 
Zambia, and Liberia.
    Prior to that he was director of the Office of Technical 
and Specialized Agencies at the Department of State's Bureau of 
International Organization Affairs. Ambassador Booth has also 
served as director of the Office of West African Affairs, 
deputy director of the Office of Southern African Affairs, 
economic counselor in Athens, and division chief for Bilateral 
Trade Affairs at the Department of State.
    We will then hear from Bob Leavitt who serves as deputy 
assistant administrator for USAID's Bureau for Democracy, 
Conflict, and Humanitarian Assistance. Mr. Leavitt has over 20 
years experience managing humanitarian and development 
assistance programs and national security policies. From 2012 
until joining the Bureau in September 2014, he served as 
USAID's executive secretary and senior advisor for national 
security affairs.
    While on detail from USAID, Mr. Leavitt served as the 
director of African Affairs at the National Security Council at 
the White House from 2009 to 2012. He joined USAID in 2001 as a 
conflict resolution specialist in the Bureau for Africa after 
he worked for Catholic Relief Services from 1994 to 2000.
    Ambassador Booth, you are recognized.

STATEMENT OF THE HONORABLE DONALD BOOTH, SPECIAL ENVOY TO SUDAN 
           AND SOUTH SUDAN, U.S. DEPARTMENT OF STATE

    Ambassador Booth. Thank you, Chairman Smith, Ranking Member 
Bass, and members of the subcommittee. I appreciate the 
opportunity to speak before you today.
    Yesterday, April 26th, former Vice President Riek Machar 
returned to Juba and was sworn in as First Vice President by 
President Salva Kiir. Now this represents a significant step 
toward formation of the Transitional Government of National 
Unity that both leaders had committed to when they signed the 
peace agreement 8 months ago. We expect the Transitional 
Government to be formed and constituted within days now. 
However, this will not in and of itself deliver peace and 
restore national unity. To achieve those outcomes, South 
Sudan's leaders will need to work together for the people of 
South Sudan.
    I would like to note that progress this week came only 
after bouts of obstructionism by both sides. The progress of 
the last few days would not have happened without the intensive 
personal diplomacy of Ambassador Phee and her team in Juba as 
well as Ambassador Haslach and her team in Addis Ababa. They 
worked tirelessly to overcome the many last-minute hurdles that 
delayed First Vice President Machar's return.
    Looking forward, the parties in the Transitional Government 
will have to demonstrate that they can and will work together 
to make tough decisions, to break old habits, and accept a new 
and intrusive degree of international financial oversight in 
order to convince the world of their seriousness in leading 
South Sudan to a better future.
    The United States is ready to help the Transitional 
Government do right by its people, but we need to see that this 
government will not repeat past mistakes. The United States 
will press for full implementation of the peace agreement, 
particularly the reform agenda contained therein. And there I 
am referring to, first, economic reform. South Sudan needs to 
undertake rigorous macro economic reforms. It cannot spend what 
it doesn't have. It is time for austerity as well as revised 
spending priorities.
    We are coordinating with other international donors to 
ensure that any financial commitments in support of the 
Transitional Government will be conditioned on its acceptance 
of international oversight of its revenues and expenditures. 
Specifically, we believe that an external expenditure oversight 
mechanism needs to be established. To be seen as a credible 
partner, the Transitional Government also needs to demonstrate 
its commitment to allowing full and unfettered humanitarian 
access to all parts of the country.
    For too long South Sudan has been the victim of some 
corrupt leaders and their mismanagement of its economy and 
natural resources. This cannot continue. To that end, my office 
and others in the administration are pursuing measures to 
identify and act against those responsible for wanton 
corruption and theft. We want to see a Transitional Government 
in which corruption is no longer the scourge that it has been 
in the past, and we will not neglect the possibility of trying 
to recover stolen money.
    Second, security sector reform. For more than a generation 
South Sudanese society has been dominated by armed groups and 
by the perception that conflict brings rewards. It is 
imperative that men under arms be able to transition to 
peaceful and productive citizens. This disarmament, 
demobilization, and reintegration effort will require 
significant resources and enormous creativity to have a chance 
of success. South Sudan, however, must emerge from the 
transitional period as a state with an army and not an army 
running a state.
    And third, reconciliation and accountability. We fully 
support the peace agreement's provision for the Hybrid Court 
for South Sudan to be established by the African Union, as well 
as the establishment of a Commission for Truth, Reconciliation, 
and Healing. We are pleased to see that the African Union has 
begun initial preparations to create the court and we are 
prepared to support it.
    Ethnic grievance fueled this most recent war, and to 
prevent another the crimes of the conflict must be addressed 
consistent with both South Sudanese values as well as 
international norms. It is easy to name the ways that this 
agreement might fail, and it is easy to find cause for 
pessimism.
    We were appalled by the violence at the U.N. Protection of 
Civilians site in Malakal in February in which men in SPLA 
uniforms opened fire on civilians. We are dismayed by the death 
toll of humanitarian aid workers, and we continue to be 
concerned about the government's 28 states plan, which has 
complicated implementation of the peace agreement and stoked 
grievances among communities. We have made clear to both sides 
that this kind of behavior has to end.
    I want to be clear that if any of South Sudan's leaders 
continue to work against implementation of the agreement, we 
are prepared to employ any measure to include sanctions and an 
arms embargo which we believe could change their behavior. I 
believe we must remain, however, committed to helping South 
Sudan work toward the laudable goals contained in the peace 
agreement. It really is more than just an accommodation between 
warring factions. It has important reform elements.
    The people of South Sudan, the people we have spent $1.6 
billion in humanitarian assistance to support since the 
conflict began, are the reason we cannot throw up our hands in 
frustration. They are the reason we must be prepared to support 
the Transitional Government if and when it begins demonstrating 
its commitment to implementing the agreement. Any other course 
of action would simply abandon those South Sudanese to a future 
of more conflict and deprivation. These are the same South 
Sudanese who with our support for their right of self-
determination voted for independence in 2011 and who deserve a 
country that lives up to the promise of its beginnings.
    Finally, I want to thank the members of the subcommittee 
for your ongoing attention to South Sudan and its people, and 
thank you for giving me the opportunity to speak before you 
today. I look forward to your questions.
    [The prepared statement of Ambassador Booth follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
      
                              ----------                              

    Mr. Smith. Thank you very much, Ambassador Booth, and thank 
you for your personal efforts that have been extraordinary.
    Mr. Leavitt.

 STATEMENT OF MR. BOB LEAVITT, DEPUTY ASSISTANT ADMINISTRATOR, 
 BUREAU FOR DEMOCRACY, CONFLICT, AND HUMANITARIAN ASSISTANCE, 
           U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Leavitt. Chairman Smith, Ranking Member Bass, and 
members of the subcommittee, thank you for holding this hearing 
and thank you for the opportunity to testify.
    Today I would like to highlight the humanitarian crisis in 
South Sudan and how USAID has adapted its response to the 
situation. We join the Special Envoy in calling the 
Transitional Government of National Unity to begin to address 
the country's urgent challenges.
    South Sudan's economy is in crisis. Its people struggle to 
find enough to eat, and human rights abuses continue with 
impunity. The recent exodus of South Sudanese into Darfur, 
Sudan, shows the desperation that many face. A total of 2\1/2\ 
million South Sudanese have fled their homes. Approximately one 
in four South Sudanese are experiencing extreme, life-
threatening hunger. This year will likely be the most food 
insecure since South Sudan gained its independence.
    The U.S. Government and our partners continue to do 
everything possible to help the people of South Sudan, 
providing nearly $1.6 billion in humanitarian assistance since 
December 2013. This includes the $86 million we announced 
earlier today. Every month we reach 1.3 million South Sudanese 
with life-saving food assistance, protection, clean water, and 
sanitation. We have moved over 344,000 metric tons of food 
assistance, which is enough to fill the equivalent of 18,000 
tractor trailers back-to-back between here and New York City.
    Our partners also provide trauma and protection support to 
children and survivors of gender-based violence. I want to 
express our deep appreciation for our partners and colleagues 
on the ground for their courage and their commitment to save 
the lives of the South Sudanese. They continue to face 
significant security challenges and access challenges.
    Warring parties and armed actors have killed 52 aid 
workers, a dozen more since we testified last in December 2015. 
The parties are obligated under the peace agreement to allow 
humanitarian aid to flow without interference, yet aid workers 
continue to deal with lengthy negotiations, numerous 
checkpoints and other obstacles. I would like to thank 
Ambassador Booth and Ambassador Phee in Juba for repeatedly 
intervening to secure humanitarian access when it counts most.
    USAID has shifted its long term assistance from helping to 
build the institutions of the new South Sudanese state to 
investing directly in the South Sudanese people. We educate 
children where they are now, including in Protection of 
Civilians sites at U.N. compounds across South Sudan. We have 
enrolled nearly 148,000 children, more than triple the number 
of students in the Washington, DC, public school system. 
Despite these efforts, over half of all children age 6 to 15 
are not in school in South Sudan, the highest proportion in any 
country.
    We collaborate with other donors to support basic health 
care including maternal and child health services and 
immunizations. We are helping the South Sudanese regain their 
ability to make a living. We recently announced a new effort to 
help communities in food insecured states to recover assets 
such as farming tools and seeds, and improving their nutrition. 
These investments will help reduce their dependency on 
emergency assistance.
    As Ambassador Booth highlighted, paving a way for 
transitional justice processes will be critical for South 
Sudan's future. USAID has piloted a program that helps 
communities overcome trauma that perpetuates historic 
grievances. We are also working with the South Sudan Council of 
Churches to engage the South Sudanese in grassroots healing and 
reconciliation, and we launched a peace center to educate 
citizens about the peace agreement.
    We all want to see South Sudan move forward. The 
Transitional Government of National Unity must set the country 
on a path to peace and development. We expect the Transitional 
Government to prevent the extortion and physical threats of aid 
workers and to allow full freedom of movement for all 
civilians. We expect them to prioritize their country's health 
and other development needs.
    As part of our mission to end extreme poverty and promote 
democratic resilient societies, we will continue to invest in 
the people of South Sudan and their efforts to build a more 
prosperous, peaceful future. I want to thank Congress and this 
subcommittee for your commitment to the South Sudanese people. 
Your support makes our life-saving work possible. Thank you.
    [The prepared statement of Mr. Leavitt follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you so very much, Mr. Leavitt.
    To begin, just a few opening questions. First, Ambassador 
Booth, you talked about any measure being on the table. You 
might want to elaborate a little bit. Of course this is a time 
of some heightened hope, but we know that hope coupled with the 
credible threat of a downside, a sanction, personal especially, 
can sharpen the mind.
    The impact on food security, or food insecurity more 
appropriately termed, on vulnerable persons, since it is very 
hard to get food aid as well as medicines to targeted 
populations, what impact do we know--Mr. Leavitt, you might 
want to speak to this--is having on the elderly, children, 
particularly pregnant women?
    We know the great gamechanger of the first 1,000 days from 
conception to the second birthday, is any of that happening now 
in South Sudan? Are we about to see a period of stunting and 
other kinds of consequences, maladies that could be prevented? 
Fifteen thousand child soldiers, is that accurate? Is it more 
or less? What is being done to reintegrate those kids?
    John Prendergast says that one factor not addressed, and he 
goes on to talk about the main driver being unchecked greed. He 
talks about looting frenzy, violent kleptocracy, looting and 
killing with impunity, but he suggests that the one factor that 
has not been addressed is this issue of unchecked greed; your 
response to that.
    And Matt Wells in his comments points out that in February, 
Senegal, Angola, UK, and France supported an arms embargo and 
suggests that U.S. leadership has been lacking on an arms 
embargo. If the U.S. were to strongly support an arms embargo 
it is likely that the position would prevail in the Security 
Council; your reaction and thoughts on that.
    Mr. Leavitt. Chairman Smith, I will begin with the impact 
on the elderly and the children regarding this situation. USAID 
is concentrated on the situation affecting the most vulnerable 
people in the country.
    Just to give you an example of how we are targeting 
children and elderly, in the case of children USAID provides 
health and nutrition assistance to some of the most vulnerable 
in some of the most dangerous and vulnerable areas of the 
country. What that translates into, what that looks like is an 
example of an 8-month-old boy in the State of Jonglei late last 
year got malaria. He got terribly sick, dehydrated, and became 
less than 10 pounds in weight. The mother carried that boy for 
6 hours to get to the first accessible clinic.
    That was funded by USAID's partner IMA, health 
international. That organization provided specialized 
therapeutic assistance to that child in nutrition support. That 
child gained back 3 pounds over the course of 5 weeks, and at 
that point in time the mother was able to care for the child 
and to bring the child back home. This assistance, the health 
assistance and nutrition assistance that USAID and its partners 
bring to bear sometimes in remote and dangerous areas makes a 
significant difference.
    In terms of children and elderly, also making sure that our 
activities do no harm and our activities support the needs of 
such vulnerable populations, we have partners that have helped 
train communities that have been vulnerable to conflict and to 
displacement to be prepared, when necessary, to flee. And our 
partners have provided training for communities to have escape 
plans, evacuation routes, run bags, and in one recent case that 
training was actually utilized just a day or so after it was 
received. And that training also looked at how to care for the 
elderly, how to make sure that we are caring for the needs of 
the children and the elderly as people flee.
    Ambassador Booth. Thank you very much, Mr. Chairman. Let me 
tackle the child soldiers question first. I don't think there 
is a really reliable number of the numbers that have been 
recruited, because a lot of children who have ended up in the 
conflict have been parts of militias and other groups such as 
the infamous Nuer White Army, which is really a traditional 
hunting band, which has been suborned at times in this conflict 
in support of the opposition.
    But, and clearly when we look at a DDR program, one of the 
first actions and where we would like to have U.S. 
participation in early intervention is in identifying child 
soldiers and getting them separated and out and into some sort 
of psychosocial counseling so they can be reintegrated into 
society. Child soldiers----
    Mr. Smith [continuing]. For counseling?
    Ambassador Booth. The capacity in country does not. We 
would have to----
    Mr. Smith. Is it even close? I mean, how quickly could that 
be stood up?
    Ambassador Booth. You would have to bring in outside 
experts to work on this and find people in South Sudan who have 
some rudimentary skills and work with them to add to that. But 
this whole question of child soldiers is something that I 
engaged with the Minister of Defense on even before this 
conflict broke out, and I think we had a commitment from the 
government at that point and they were working toward actually 
tackling this problem in a serious way. The conflict obviously 
set that back.
    The question about measures to take if the leaders don't 
cooperate, I mentioned in my oral remarks that really we have 
sort of everything on the table. We are prepared to look at 
sanctions. We are prepared to look at an arms embargo. I think 
one of the key elements though is what I discussed, which is we 
really want to make sure that resources of the country are 
going to be utilized for the people of the country. And so we 
are taking a careful look at what has been stolen in the past 
and who stole it, so we are definitely going to pursue that.
    Mr. Smith. If I could interrupt briefly, is Enough Project 
of help to you, The Sentry, their project--are you working with 
them on that?
    Ambassador Booth. We certainly are working with them. They 
have shared information with us. We have been discussing this 
with them. I think it is a good information collection 
gathering effort, but we now need to take that forward in ways 
that the U.S. Government is uniquely qualified to do whether it 
is through our FinCEN at Treasury which looks at this issue on 
a systemic basis, or through the Department of Justice which 
would look at things in an individual case basis.
    And there is also an Executive order that gives us the 
ability to deny visas to people that are involved in corruption 
at well, so there are a number of tools out there we can use.
    Mr. Smith. So you have sufficient authority for tools to 
hold individuals to account?
    Ambassador Booth. We have a broad range of tools that we 
can use should people be backsliding. The other big tool that 
we can use, frankly, is going to be getting those countries in 
the region who have no interest in having a failed state on 
their border to put their own pressures on, and often that is 
much more effective than what we can do from the U.S.
    This gets to the question about the unchecked greed and 
corruption. Again we are trying to tackle that in two ways. One 
is looking at what has happened in the past, but more 
importantly, as I said in my remarks, we want to make sure that 
with this government there is transparency in its public 
finances. And we have already put the existing government as 
well as the opposition before they came together on notice that 
we would be looking for some sort of expenditure control 
mechanism to be in place. Otherwise, it would be very difficult 
to justify putting additional resources in support of 
stabilization of the macroeconomy.
    So that is a push we have been working with our 
international partners on. We have had a number of meetings, 
most recently last month, here in Washington with key donors.
    And then on the events in the Security Council about the 
arms embargo last month, at that time the focus of the efforts 
was to ensure that former Vice President Machar returned to 
Juba and the Transitional Government was stood up. And so the 
idea was not to punish for the fact that it wasn't stood up, 
but to encourage the parties to get it formed and to implement 
the peace agreement.
    And so we looked at what we could do that would have an 
impact that would incentivize both sides, and there the embargo 
actually came up short because it would incentivize the 
government much more which could have led to greater resistance 
from the opposition. And so that was the problem that we were 
dealing with at the time. Now that they are one government it 
should be easier to exert some of those types of pressures.
    Mr. Smith. A deployment of 13,000 peacekeepers, is that 
about right? Is it enough?
    Ambassador Booth. The U.N. increased the peacekeeping 
ceiling to 12,500 troops in December 2013, and then added 
another 500 to the ceiling in December 2015. Those troops have 
not been found and recruited yet to deploy to the mission, and 
it took about 18 months to even do the first bump-up. So there 
is a problem of finding people, troop contributing countries, 
and I think the role of the U.N. Mission, protection of 
civilians, will begin to change with the Transitional 
Government.
    With a Transitional Government that is functioning you 
should have people beginning to feel safe that they can now 
leave these U.N. camps, can begin to leave the IDP camps and go 
home. And that will also be the main thing, I think, that will 
alleviate the humanitarian crisis facing the country.
    Mr. Smith. Thank you.
    Ranking Member Bass.
    Ms. Bass. Thank you very much, Mr. Chairman, for conducting 
this hearing and also for our witnesses.
    While we welcome the return of Riek Machar to Juba, we 
recognize that for all parties concerned, including the United 
States, much hard work must be done to address effectively the 
current situation on the ground and help move this pivotal 
country and its people forward in peace.
    I had the opportunity to visit South Sudan twice over the 
last few years and the opportunity to meet with the people and 
the leaders of the world's youngest country. During my first 
visit, a congressional delegation in May 2012, almost a year 
after South Sudan's independence, there were high expectations 
of what independence could mean for the country, the region, 
and the diaspora.
    My last visit to South Sudan with my colleague Mr. Capuano 
was in November of last year. The difference between this visit 
and the first visit could not have been more stark. Last 
November there was an atmosphere of fear and desperation. I saw 
and met victims of physical attacks and the internally 
displaced all desperate for access to humanitarian assistance.
    I also heard about countless accounts of human rights 
abuses and about the degradation of women and their children in 
an environment where there appeared increasingly to be a lack 
of compassion. Against the backdrop of increasing intercommunal 
strife, perhaps the most telling statistics are those of South 
Sudanese seeking refuge in neighboring countries including 
Sudan.
    Since December 2013, the beginning of this crisis, the U.N. 
reports over 200,000 new South Sudanese arrived in Sudan. These 
refugees are in addition to the 200,000 South Sudanese who fled 
to Ethiopia, the ones who fled to Uganda, and the approximately 
100,000 that fled to Kenya. In addition, South Sudan has an 
internally displaced population of approximately 1 million 
people.
    A major concern of all of us who monitor closely 
humanitarian issues is the blatant intimidation and killings of 
humanitarian workers, the majority of whom are South Sudanese. 
While we were there, I believe it was, Mr. Capuano, 2 weeks 
before we got there, there was a humanitarian mission where the 
boat was hijacked and everybody was held hostage for a couple 
of weeks and everything on the boat was stolen. I am also 
concerned about food consumption and the increasing crisis, the 
food insecurity which both witnesses have referenced.
    But before I close I want to note what I hope is a prospect 
for peace, and that is the South Sudanese-Americans, the former 
Lost Boys and Lost Girls. We had a policy breakfast about this 
last week. There are a number of them that I am sure are here 
in the room today, and if there are they should raise their 
hands. These were former Lost Boys and Lost Girls who came to 
our country years ago and have made incredible accomplishments, 
becoming doctors and nurses and playing a very positive role in 
U.S. society.
    And so I am considering introducing legislation that might 
have our Government support some of them returning, and I 
wanted to know your opinions about that and how we might do 
that in a constructive way. Many of them in my conversations--
and Mr. Capuano and I met with a group of, I think it was 
probably about 25 who came from all over the country and they 
have accomplished a tremendous amount here, but, you know, they 
have left family back in South Sudan and many of them have 
expressed an interest in returning, and I want to know your 
thoughts on that. The leadership vacuum that exists there now, 
and if you think they might be able to return and make some 
contribution.
    I also want to know, I mean, I realize that Vice President 
Machar just returned, but I want to know if you have heard any 
reports of anything that has happened. I guess he has just been 
there a few days and I know he brought a tremendous number of 
forces with him. But what is the sentiment? What is happening 
now? So perhaps you could answer those couple of questions 
before I continue on.
    Ambassador Booth. Thank you very much, Congresswoman. Let 
me answer the second, or the last part of it, first, about Riek 
Machar's return and the impact in Juba. I think one indicator 
is the strengthening of the South Sudanese pound today, so I 
think the markets are reacting favorably as one indication.
    The reception that he was given yesterday when he went 
directly from the airport upon arrival to the presidential 
grounds for the swearing-in, and the speech that was made by 
President Kiir in particular, was very, I think, uplifting. The 
President apologized not only to the people of South Sudan for 
the conflict, but he apologized to the international community 
for----
    Ms. Bass. Good.
    Ambassador Booth [continuing]. What has happened. And he 
raised the hands of both Riek Machar and Vice President Wani 
Igga, who is from Equatoria, so the three major regions of 
South Sudan together, and said we are going to work together 
and we are going to implement this agreement and we are going 
to restore our country.
    So I think the atmospherics initially have been very good 
and I commend the parties for that. There is still a lot of 
tough work ahead, and I anticipate that there are issues that 
were not fully resolved in the peace agreement and will 
continue to be contentious in going forward. But that is the 
real test. Can they show that they can work together? Can they 
compromise? And that is the challenge that is ahead of them and 
the challenge that we are putting to them.
    Ms. Bass. Let me interrupt you for a second. When we were 
there and we met with President Kiir, the whole idea of the new 
states that were created he left us with the impression--and 
Mr. Capuano, I think you would agree. But he left us with the 
impression that that was not necessarily going to be 
implemented right away, because how could these parties come 
together and agree to divide leadership and create a new 
government and then in the meantime he goes and doubles the 
geographic areas? And I don't know how Machar is supposed share 
power in that situation.
    Do you, is it your impression--and we were there in 
November. Is it your impression that he moved forward with the 
creation of these new states or did he keep it to the number 
that is was before, which I think it was at 12--10? So he went 
from 10 to 28 states.
    Ambassador Booth. Unfortunately, Congresswoman, on 
Christmas Eve, the President did promulgate the order to create 
the 28 states. And despite strong pressure that they not move 
forward and actually implement that, though, they did move 
forward over the last couple of months appointing governors and 
other officials.
    The events in Malakal at the PoC camp, the underlying 
tensions for that were most likely a result of this 28 state 
decision where the Shilluk community in particular felt they 
were being displaced because Malakal has been moved from a 
Shilluk dominated area to a Dinka dominated area. So the 28 
states created not only difficulties in implementation of the 
agreement, which was based on power sharing in 10 states, but 
also created these additional ethnic tensions which have played 
out not only in Malakal but also in Western Equatoria and 
Western Bahr el Ghazal.
    Ms. Bass. You know, practically speaking, what did they do, 
roll up on the governor's mansion and tell the governor he has 
got to leave?
    Ambassador Booth. Well, in one case, in effect yes that did 
happen in Pibor, and there was fighting in Pibor town as a 
result of that as one governor replaced another. We have pushed 
very hard and with the support of the international partners 
and President Mogae, who is running the JMEC, the monitoring 
mechanism responsible for oversight of the implementation of 
the agreement, to push for the issue to be put off until the 
Transitional Government is formed, and for there to be a 
boundary commission that would look at what the borders of the 
states would be and also, frankly, to take a look again at the 
subdivision of the country. Frankly, South Sudan cannot afford 
28 states at this point.
    Ms. Bass. Did they redo the power sharing with Machar?
    Ambassador Booth. That is an issue that is still 
complicated, because power sharing at the state level as I said 
was based on 10 states. The government has said any state that, 
new state that came from one of the states that the opposition 
would have gotten the majority in, then the opposition would 
get the majority there.
    So instead of the opposition having a majority of the state 
government in 10 states it would have an opposition majority 
in, I believe, 6 states. Sorry, three of the 10 versus 6 of the 
28. That issue is one of those unresolved issues that is out 
there. I think this 28 state question will be something that 
preoccupies the Transitional Government in its early days, 
among other things.
    You also asked about security. Yes, there was provision in 
the security agreement that followed the peace agreement for 
Riek Machar to have security in Juba. They have now mainly 
deployed there including elements of the Joint Integrated 
Police that will be responsible for security of the city.
    Ms. Bass. Well, before I run out of time though, if you 
wouldn't mind, the question I asked about the Lost Boys and 
Girls who are men and women and they are no longer lost, but 
what your thoughts are about that.
    Ambassador Booth. Clearly, there are a number of people, 
Lost Boys and Girls, others from the diaspora that have skills 
that would definitely benefit South Sudan. Some have gone back. 
You mentioned a leadership vacuum. I think the leaders there 
would argue that there is no leadership vacuum. There are 
plenty of potential leaders in the country.
    Ms. Bass. Okay.
    Ambassador Booth. But I think I know what you were 
referring to.
    Ms. Bass. I wasn't necessarily referring to the President 
and the Vice President. But I mean, I think there is lots of 
layers although that is debatable as well. Yes, right. A lot of 
new governors are needed, right?
    Ambassador Booth. Hopefully we won't need as many governors 
either. There are those types of programs. The World Bank has 
one known as TOKTEN, which is the transfer of knowledge, which 
brings back diaspora members, helps fund them. So those are 
programs that have worked in some countries.
    There is always resistance, however, particularly when a 
country is coming out of conflict, to having people who have 
not been there come back and take over, particularly more 
highly paid positions. But South Sudan clearly does need 
expertise, so whenever I meet with diaspora I encourage them to 
indeed look for how they can contribute, whether going back or 
staying here and contributing from here. Thank you.
    Mr. Smith. Thank you very much. I yield to the 
distinguished chairman of the full committee, Chairman Royce.
    Mr. Royce. Thank you very much, Chairman, for holding this. 
I know how involved you and Congresswoman Bass have been on 
this issue and in pushing for U.S. engagement on this issue, 
and we thank you for that. And I think yesterday with the 
return of Riek Machar to Juba we see maybe, for once, a real 
opportunity here. We thank the Embassy for their work in that 
regard of getting him there. But I think establishing a 
Transitional Government is obviously the cornerstone of the 
step we have to take.
    One of my frustrations through all of this is that we have 
not utilized the arms embargo to shut down the weaponry that 
continues to escalate. And now that we have a peace process, I 
think it begins to lay the foundation for the administration 
having argued, well, it is punitive to do that. I don't think 
it was punitive, but now it is conditional, right? It is a 
condition I would hope, Ambassador, it is a condition of the 
deal that we cut off the arms flow.
    And I think the problem is that with these factions so 
heavily armed now and spending their resources on those 
armaments, and with the deep distrust that they have, and I 
have spoken to both sides of this conflict, but they are now 
confined in the capital, and one miscommunication could spark 
an absolute explosion within the capital of not just the start 
of another conflict, but the loss of human life in that 
crossfire, which would really be catastrophic.
    So on that point, I think we have long used this argument 
of an embargo as an empty threat. I see some of the witness 
testimony here that shows that witnesses are going to testify 
to the fact that in the past actual imposition of an embargo 
has shut down the amount of violence. The threat of an embargo 
without imposing it? No, no. That often actually increases the 
conflict as these continue to ramp up. So I am just back to 
something that I have, Ambassador Booth, long been haranguing 
about but I just think it is really important now.
    Lastly, if they are going to respect the ceasefire why 
would they still want to build up their arsenals? So I think 
from that standpoint that is just one additional argument why 
part of this has to be to prevent that cycle. It has been 
widely reported that this past February there was expressed 
support at the U.N. Security Council. What I saw was the UK, 
France, our friends among African Union members all in support 
of that, so that is a good thing. And I don't know how bad 
things have to get to get to the point where the U.S. is on 
board, but I would suggest we are past that point, not to 
belabor it.
    The last point I would make here is that the financial 
coffers are nearly empty. They are not going to be able to 
repay any debts, probably, in Juba. So Ambassador Booth, I am 
pleased to read in your testimony that the administration is 
coordinating with other international donors to ensure 
financial commitments to support the Transitional Government 
will be conditioned on international oversight of both the 
revenue side of this and the expenditure side. I think it is 
vital. It is vital because, frankly, both sides have a long 
history with respect to, we will just call it corruption, or 
misuse of funds.
    And I would ask what actions will the administration take 
if the South Sudan Transitional Government does not accept the 
prerequisite oversight mechanisms? I think that is wise to let 
them know that there will be consequences if they try to skirt 
that. Will we be ready to walk away from the table if they 
refuse that? And have we considered adding any new names to the 
U.S. or U.N. sanctions list? A lot of time has gone by. We 
haven't wrapped that list up, and there are some pretty bad 
actors involved and I think we have to be mindful of that. We 
don't want to create a perception of immunity. So I will allow 
you to respond. Thank you very much.
    Ambassador Booth. Thank you, Chairman. It is good to see 
you again. Let me address the issue about arms. We all agree 
that there are far too many arms in South Sudan and that they 
certainly don't need anymore. And particularly now that they 
are together in a Transitional Government, there is no point in 
continuing to build up the arms stockpiles.
    I think one of the ways that is most effective to get at 
this, and would be more effective even than an arms embargo--if 
it was supported particularly by the region--and there are many 
in the Security Council who do not support it and it was not 
even a unanimous support about a month ago when it was raised 
by the African members, so it is not an easy lift in the 
Security Council by any means. But the way to get at this 
problem, really, is through the public financial management 
approach that we are proposing.
    I mentioned also macroeconomic reform, and one of the 
things in order to make this government budget anywhere near 
being financeable they are going to have to make major 
concessions. And one that has been recommended to them by the 
IMF is that capital expenditures need to be cut basically to 
zero. Now capital expenditures is weapons as well, and so if we 
can use the financial side of our approach to this to get at 
preventing additional weapons from getting into South Sudan 
that would be, I think, an easier way to do it and a more 
effective way to do it.
    I think, also, the Council support for this followed 
immediately after the events in the PoC site in Malakal and 
since then has diminished in ardor for doing this, and even 
more so given the fact that the Transitional Government is 
about to be formed with Riek Machar there. You asked what we 
would do if they don't accept sort of the transparency of the 
public finances. I think the answer there is they don't get the 
type of money that they would need to do things like stabilize 
the economy, to implement reconstruction, and really to move 
forward in any meaningful way on DDR.
    This country, because of the decline in the price of oil, 
and since oil had been the major, over 90 percent, source of 
their revenue, the country is now really in a very difficult 
position. And so they really are going to need the help and 
support of the international financial institutions and donor 
partners. So we, I think, are in a good position to be able to 
achieve the type of intrusive role that we have been proposing.
    Mr. Royce. Thank you, Ambassador.
    I see John Prendergast here. I just wanted to thank him for 
getting me into Sudan even if it was without a visa. John, 
thanks. Thanks for being with us today.
    Mr. Smith. Thank you. Mr. Cicilline.
    Mr. Cicilline. Thank you again to our witnesses. I want to 
just focus for a moment on the question of the child soldiers. 
And I am wondering whether you, Ambassador, or Mr. Leavitt, 
could talk a little bit about what we are doing to both prevent 
more child soldiers and to help secure the release of existing 
child soldiers, and to the chairman's question how large is the 
problem?
    Ambassador Booth. Well, Congressman, as I said we don't 
have a totally accurate number because these are not formal 
military organizations. And, you know, many of the militia 
groups, I mentioned the Nuer White Army as an example, where 
they traditionally have brought younger children in as part of 
their cattle-raiding activities, and when these cattle raiding 
activities become part of the conflict, yes, they become child 
soldiers.
    So the scope of the problem is something that needs to be 
defined as we go into this DDR program. As I said, one of the 
top priorities would be to get the children away from other 
combatants, to get them into some sort of psychosocial 
counseling program, reintegrated back into their society, 
hopefully with their families.
    Mr. Cicilline. But that is not happening at all right now.
    Ambassador Booth. That is not happening because there 
hasn't been a security sector reform program so there hasn't 
been a start to DDR yet. But there has been a start of soldiers 
going to cantonment sites, which is a rather loose term because 
these are not sort of formal barracks but more the villages 
where they would be then registered and accounted for, and so 
that is when we can start that process.
    But that is something that we would need, you know, to 
probably work with other partners to ensure there is sufficient 
funding to get that done. But the child soldiers is clearly one 
of the top priorities for DDR.
    Mr. Leavitt. As a part of USAID's emergency education 
activities, 148,000 children have been enrolled, children and 
adolescents. That does not target former combatants, former 
child combatants, but there are former child soldiers who had 
served as combatants that are a part of those programs. And 
some of those former combatants have received psychosocial 
treatment.
    Mr. Cicilline. Thank you. And with respect to the issue of 
the endemic corruption that seems to plague South Sudan since 
the very days of its formation, what can we do working with the 
regional governments to help the South Sudanese leverage their 
natural resources to make sure that the proceeds from those 
resources actually go to the people and not line the pockets of 
the political leadership? You know, what other steps can we 
take to help incentivize or advocate for that kind of approach?
    And secondly, would you just speak a little bit on what was 
the rationale for the creation of the additional states? Was it 
simply to give more appointments of governors, or was there 
some underlying policy, and how do you think that is likely to 
sort of unfold?
    Ambassador Booth. Well, on the issue of corruption and--
particularly how do you make sure that the resources that come 
to the state, basically the oil revenues, get used for the 
benefit of the state--that was something that we had identified 
during the peace negotiations, and we pressed hard for 
inclusion in the peace agreement of an intrusive public 
financial management oversight system. That was, I think, 
understandably resisted by some other countries in the region 
who are not particularly interested in setting precedents like 
that.
    But with the declining price of oil and the prolongation of 
the conflict, South Sudan is now in a position where it really 
has virtually no revenue, and so we are taking another run at 
this as a group of donors in conjunction with the international 
financial institutions to try to make sure that indeed what is 
owed to the state gets collected, goes to the Ministry of 
Finance, the Central Bank, and then is spent according to the 
budget so that there aren't a lot of extra budgetary 
expenditures, no one showing up at the Central Bank saying 
where is my $200,000 that I asked for this morning? That has 
been a perennial problem in South Sudan and one that needs to 
be stopped.
    The 28 states issue is interesting. During the peace 
negotiations the opposition pushed very hard for a formal 
declaration that South Sudan would be a Federal country, a 
Federal system of government, and the opposition pushed for 21 
states in that Federal system. The government at that time, 
Salva Kiir, supported by the mediation and by others such as 
ourselves, said the structure of a state is a fundamental issue 
that should be decided when you draft your permanent 
constitution. It shouldn't be something decided around a 
negotiating table over a peace agreement.
    That prevailed during the negotiations, and so it was 
rather shocking that President Kiir would float this then 3 
months after having signed the peace agreement, something he 
had vigorously opposed during the negotiations. It was really 
done as a political ploy, I think, by both sides to 
particularly gain support from the Equatorias.
    The three Equatorian states have long been supporters of a 
Federal approach in South Sudan, and so there was a sort of 
jockeying for political support that was going on. This 
unfortunately has created more ethnic tensions in parts of 
South Sudan and more violence. And so this has to be addressed 
by the Transitional Government as a priority matter.
    Mr. Cicilline. Thank you, and I yield back.
    Mr. Smith. Mr. Rooney.
    Mr. Rooney. Thank you, Mr. Chairman, and thank you to the 
chairman of the full committee for letting me sit in today. I 
sit on the Appropriations Committee, the Subcommittee on State 
and Foreign Operations, which is why I am here today and why I 
have taken an interest in your testimony, for obvious reasons, 
where our money is going and how it is being spent. I 
appreciate your testimony and your job, and I also appreciate 
the sensitivity of diplomacy and how we must proceed forward 
despite certain setbacks.
    But I do find very interesting some of the things that we 
have heard today, especially from the chairman. I know we talk 
about being disappointed and condemning violations of 
ceasefires, attacks on U.N. compounds, and the killing of 
civilians by government forces. I know recently Susan Rice went 
so far as to demand that the Government of South Sudan 
investigate the attack it orchestrated against its own citizens 
itself, and bring itself to justice as if it was the United 
States.
    If we the United States aren't publicly willing to hold 
those accountable for atrocities committed throughout the 
course of the war, and hold those accountable who raided the 
public finances to support the purchase of military equipment 
used to conduct systematic killings of civilians, it is kind of 
hard to fathom that this government is going to do that 
themselves. They are just not going to do it. It is not going 
to happen.
    So I think as an appropriator and somebody who votes to 
spend money on things that I think are important, that we need 
to send a message to let the people know that we are serious 
that we are on the side of the people and not the leaders, 
whether it be the government or opposition. And we need to 
really tell when we look at these leaders that when we say and 
we demand a stand-down order that that is what we demand, and 
not sort of, you know, well, it is a touchy situation because 
governments are just forming and, you know, we don't want to 
have sanctions or an arms embargo, because there shouldn't be 
arms coming in from either side.
    I mean, you know, we have talked in our office to people 
that are in the NGO community. If there was a real arms 
embargo, it would have a real impact. The threat or sort of 
like these half measures, I think, actually sends, as I think 
that Chairman Royce was saying, actually has a 
counterproductive consequence.
    So I guess my question is this. As an appropriator, 
somebody who votes to spend money, why are we allowing war 
criminals and war profiteers to dictate our policy while they 
deliberately lie, cheat, and steal from us? And how has the 
international community held those responsible accountable for 
these war crimes and what is it doing to stop attacks like this 
from happening again? And what is it going to take to hit these 
guys where it hurts--I am talking about the leaders on both 
sides--so that our people, our taxpayers in this country, feel 
confident that their tax dollars are not being wasted? Thank 
you.
    Ambassador Booth. Thank you, Congressman. You raised two 
issues, accountability for war crimes and also accountability 
for the money that has been spent. On the issue of war crimes, 
gross violations of human rights, this is why the peace 
agreement includes the provision for the creation of this 
Hybrid Court for South Sudan which would be created by the 
African Union, and they have begun to work on that. It will be 
hybrid. It will be with South Sudan. But the leadership of it 
will be coming from the African Union, and they have started 
work and we are prepared to support that.
    Last May, Secretary Kerry pledged $5 million as an initial 
down payment if you will to support this effort. We take 
accountability for gross violations of human rights seriously 
and we will be in the forefront of pressing for that. We were 
the ones who pressed for the release of the African Union's 
Commission of Inquiry report. We have been very active in the 
U.N. Human Rights Council.
    We have managed to get a resolution this past January or 
February that creates a panel of experts that will continue the 
work of looking at what has happened. My office, in conjunction 
with our Human Rights Bureau, is also funding a documentation 
center so that South Sudanese themselves can document what has 
happened so that information is there for accountability 
purposes.
    In terms of the money, you mentioned that an effective arms 
embargo would have an impact. We fully agree. The problem has 
been: Could you get an effective arms embargo? You need to have 
the cooperation of the immediate neighbors, and during the 
course of this conflict there were divisions in the immediate 
neighbors and those divisions played out in terms of support of 
arms and other equipment moving to both sides of this conflict.
    This is where again we worked very hard to help bring the 
immediate neighbors together and the Intergovernmental 
Authority on Development (IGAD), which ran the mediation. And 
President Obama's participation in a meeting with the heads of 
state of IGAD back in July, we think really was a major element 
in the breakthrough of getting them on the same page, and we 
had a month after that the signing of the peace agreement. So 
that is what is absolutely required if you want to have an 
effective arms embargo.
    But as I mentioned, I think we can get at this problem of 
spending money on arms, when there needs to be money spent on 
food and medicine and roads, through the very intrusive public 
financial management controls that we are proposing to the 
Transitional Government.
    And in terms of protecting American taxpayer money that is 
exactly why we are proposing this. We want to make sure not 
just that we know how our money is being used, but how the 
money that is South Sudan's money is being used for the benefit 
of the people. And until South Sudan starts to move, put much 
more of its money, in fact all of its meager resources at this 
point, to the benefit of its people and to reconstruction that 
would be the trigger for us to then look at whether we could 
help. But we need to make sure that the practices of the past, 
whether it is corruption or, you know, misaligned spending 
priorities, need to be corrected.
    Mr. Smith. Mr. Capuano.
    Mr. Capuano. Thank you, Mr. Chairman. Again I want to 
appreciate the opportunity to be here as well, as not a member 
of the committee but a longtime observer and supporter of the 
creation of South Sudan.
    Mr. Leavitt, I want to start out by saying thank you. I 
can't tell you how much most of us love what the USAID does. 
You represent the best of America around the world in dangerous 
situations. As you said the 52, if I remember the last number, 
of your people have been killed and, you know, never mind all 
those who have been harassed and threatened with bodily harm 
and actually received bodily harm that weren't killed. So I 
want to say thank you and appreciate that and I would love to 
be able to do more to help them.
    But I also want to be real clear though. USAID doesn't 
operate in a vacuum, you operate with a lot of other partners 
around the world. And when we were in there, when we were in 
Sudan we watched as people were given their rations for the 
month and we were told unequivocally by the camp owners that 
the food that they were given was calculated to last 20 days 
for the month, not that the food would, but that the 
nutritional value of that food was 20 days' worth.
    So with all the work that we are doing, with all the money 
we are sending, we are still not providing people the absolute 
minimum to sustain themselves. And with that Ambassador, again 
we have worked together for many years now and you know how 
much I appreciate your effort and your work. And actually, more 
than anything else I appreciate your patience which I don't 
have. You have to have it. I don't.
    But I do want to go back to the sanctions just a little 
bit. I want to be real clear that my support for sanctions, not 
just general sanctions in arms, there are so many small arms in 
that country, the sanctions are not going to do anything to 
remove them. However, if the sanctions, this is my opinion, 
were directly focused to the large arms that did not exist in 
that country more than a year or 2 ago, which cost millions of 
dollars for helicopters, millions of dollars for vehicles that 
can pursue people through swamps, it changed the face of that 
conflict dramatically.
    It is bad enough when bad actors are doing bad things, but 
then when they chase the civilian, the unarmed civilian 
population out of a village and then they can pursue them with 
a helicopter and they can pursue them with vehicles that can 
get through swamps, that changes it dramatically. It is bad 
enough to be able to live in a swamp, live nearby in the forest 
to be able to not even be able to do that is something that I 
would argue that if we focus directly on the heavier arms, 
especially now, the country, no one can argue that they need 
them now. And if we can't get sanctions through the U.N. there 
are other ways that I will trust you are more capable of 
pursuing than I am.
    But again for me the focus is, not that I wouldn't like to 
give it up all arms, but on those heavy arms in particular, and 
as you know we have had this discussion before. I would 
personally like to see chasing particularly the worst actors. I 
would love to see their personal funds chased. And I say that 
because, you know, they aren't just sitting in a mattress in 
South Sudan. They are not in gold bars. They are sitting in 
banks in Kenya and Uganda for the most part. And, you know, it 
is cash that they have stolen from our money, from USAID, not 
just like cash but items that they stole from you and then 
sold, and it is readily available.
    And again I know we have had this discussion before and we 
have to go vote, but I wanted to add my voice to that which you 
have heard before, but I wanted to do it here for the record as 
well.
    Mr. Smith. Thank you very much. Let me just conclude with 
one final, a very brief question, and elaborate for the record 
if you would. With regards to child survival, are children 
getting the vaccinations that they absolutely need to survive 
and to prosper? And the first 1,000 days of life which I know 
South Sudan has agreed to, is that a priority of USAID to 
ensure that that nutrition and supplementation to reduce 
maternal mortality as well as child mortality being 
prioritized?
    Mr. Leavitt. Our health activities and nutrition activities 
do very much focus on women and children at this time. With 
regards to vaccinations I can take that for the record and 
provide you the details on that.
    [The information referred to follows:]
Written Response Received from Mr. Bob Leavitt to Question Asked During 
           the Hearing by the Honorable Christopher H. Smith
    For many years, USAID assistance to South Sudan has included 
childhood vaccinations against major vaccine preventable diseases which 
include polio, measles, and diphtheria, pertussis, and tetanus 
Hepatitis B and Haemophilus influenza type B), as a core part of our 
basic health services. USAID helps South Sudan with the purchase of new 
vaccines through its global investment in Gavi, the Vaccine Alliance, 
and with the aim optimizing the global investment, the USAID mission in 
South Sudan supports activities to strengthen routine immunization 
systems, including service delivery which is necessary for the delivery 
the vaccines. USAID is an anchor donor for Gavi with more $200 million 
in annual contribution and South Sudan is one of the Gavi priority 
countries for vaccines and health systems.
    South Sudan's national immunization program is largely supported by 
international development partners, including USAID and Gavi. USAID 
actively participates in the National Interagency Coordinating 
Committee to ensure that Gavi funds are used strategically in support 
of routine immunization activities in South Sudan. As part of ongoing 
health activities, USAID-funded programs will continue to work with 
county health departments and state ministries of health to implement 
the ``Reaching Every District/County'' strategy in all eight states 
covered by a multi-donor health fund (supported by USAID, the United 
Kingdom, Canada, European Union, and Sweden). The eight states covered 
by the fund are Central, Eastern and Western Equatoria; Western and 
Northern Bahr el Ghazal; Lakes; Unity and Warrap. The World Bank 
supports basic health services in the remaining two states, Upper Nile 
and Jonglei.
    In the last three years, routine immunization activities in South 
Sudan have been significantly affected by conflict, particularly in the 
northern part of the country. Consequently, the national administrative 
immunization coverage (DPT-3/PENTA-3) has dropped from nearly 70 
percent in 2011 to 56 percent in 2015. USAID support has been essential 
in preventing these rates from dropping even further. Because strong 
routine immunization depends on a functional health system, 
improvements will take time. In the interim, USAID continues to work 
with other partners, including the World Health Organization and 
UNICEF, to support integrated immunization campaigns for polio, 
measles, and vitamin A supplementation, as well as to improve routine 
immunization through periodic accelerated vaccination outreach 
activities.
    USAID humanitarian programs support immunization campaigns for 
measles and polio as part of essential primary health care for 
internally displaced persons (IDPs) and children at risk of 
malnutrition, both within IDP sites and through mobile clinic outreach 
services. In addition, USAID supported cholera oral vaccination 
campaigns in congested IDP sites to respond to and mitigate cholera 
outbreaks in 2015.
    Preventing stunting requires a multi-sectoral approach in the first 
1000 days. USAID supports the provision of safe water and sanitation 
facilities, as well as training on safe hygiene practices, to prevent 
and mitigate the negative effects of diarrheal disease on health and 
nutrition. In addition, education for caregivers on infant and young 
child feeding practices helps to promote optimal nutrition with the 
resources available to families. Psychosocial stimulation can also be 
an important factor for preventing stunting among young children. USAID 
provides community-based psychosocial support services for conflict-
affected children and mothers to enhance their emotional and 
psychosocial wellbeing, such as through provision of recreational 
spaces and activities.
    These activities complement USAID humanitarian and food assistance 
programs, which aim to address the immediate nutritional needs of 
children and pregnant and lactating women in South Sudan and save lives 
while mitigating the longer-term developmental impacts of the conflict. 
USAID supports 10 partners to deliver life-saving treatment for 
children aged 6 to 59 months and pregnant and lactating women who 
suffer from acute malnutrition. Since the crisis began, USAID has 
provided over 1,300 tons of Ready-to-Use Therapeutic Food (RUTF) to 
UNICEF for the treatment of severe acute malnutrition and over 3,600 
tons of Ready-to-Use Supplementary Food (RUSF) through the World Food 
Program for the treatment of moderate acute malnutrition. USAID 
humanitarian funding also enables provision of primary health care and 
maternal and antenatal services in the UN Mission in the Republic of 
South Sudan Protection of Civilians sites and other locations 
sheltering large numbers of IDPs.
    In addition, in early June, the Ministry of Health, in coordination 
with relevant line ministries, donors, UN agencies, NGOs, and other 
civil society organizations, held a high-level advocacy meeting on 
Scaling Up Nutrition, signaling its intention to revitalize the 
movement to end malnutrition in South Sudan. USAID will work with other 
stakeholders to support this process in the coming months.

    Mr. Smith. Because, you know, in the past even when there 
were conflicts, and one of my first, I actually worked on this 
issue since I have been in Congress for 36 years, but I will 
never forget when the FMLN and President Duarte even in the 
height of their conflict in El Salvador had days of tranquility 
in order to vaccinate the children. And hundreds of thousands 
of children were protected against polio, diphtheria, and a 
number of other child killing diseases, and I just hope that is 
a priority. If you could get back to us on that, it is 
extremely important.
    We stand in recess. We have four votes and then we will 
reconvene for Panel II. Thank you so much.
    [Recess.]
    Mr. Smith. The hearing will resume. We do have some members 
en route so I thought I would wait, but I think if we wait too 
long we will have another set of votes. So I do apologize for 
that set that intervened. I do want to say a brief statement 
about this prayer petition for South Sudan.
    Deborah Fikes may have left but she was with us earlier 
from the World Evangelical Alliance, 104,000 signatures on a 
resolution committing those people to prayer asking our leaders 
to take bold action to ensure peace is realized in South Sudan 
by doing everything in their diplomatic power to stop the flow 
of weapons and ammunition that are fueling the violence and 
ensuring that those who stand in the way of peace are held 
accountable, to quote from the petition. So I thank her for 
providing the subcommittee with that.
    I would now like to introduce our distinguished panel, and 
I do hope the members make their way. There are no more votes 
for at least 1\1/2\ hours.
    Beginning first with Mr. John Prendergast who is a human 
rights activist, best-selling author, and co-founder of the 
Enough Project, an initiative to end genocide and crimes 
against humanity, John has worked for the National Security 
Council under President Clinton, the State Department, and in 
congressional offices. He has also worked for the National 
Intelligence Council, UNICEF, Human Rights Watch, the 
International Crisis Group, and the U.S. Institute for Peace.
    He has helped fund schools in Darfurian refugee camps and 
helped launch the Satellite Sentinel Project with actor and 
activist George Clooney. Mr. Prendergast has worked for peace 
in Africa for more than \1/4\ of a century and has been a 
frequent and an expert witness that this subcommittee and other 
subcommittees do rely on for insight and counsel. So thank you, 
John, for being here.
    We will then hear from Mr. Matt Wells who works on Africa 
and peacekeeping at the Center for Civilians in Conflict, or 
CIVIC, with a particular focus on South Sudan. Mr. Wells has 
undertaken extensive field research on the recent conflict in 
South Sudan, examining issues including the targeting of 
civilians by armed actors, the protection of civilians by the 
U.N. peacekeeping Mission, and civilian perspectives on the 
peace process and transitional justice.
    Prior to joining CIVIC, Matt was an Africa researcher at 
Human Rights Watch where he led work in Cote d'Ivoire, Senegal, 
Liberia, Zambia, and he is widely quoted in a number of major 
news outlets who seek him out for his opinion and insight.
    We will then hear from Dr. Luka Biong Deng who is a global 
fellow at Peace Research Institute Oslo and a fellow at Rift 
Valley Institute. He has taught at the University of Juba in 
South Sudan. He was a resident senior fellow at the Carr Center 
for Human Rights Policy at Harvard Kennedy School, and visiting 
fellow at the Institute of Development Studies at the 
University of Sussex in the United Kingdom.
    He served as director of the Center for Peace and 
Development Studies at the University of Juba, a minister in 
the Office of the President of Southern Sudan, and a national 
minister of Cabinet Affairs of the Sudan until he resigned in 
May 2011.
    We will then hear from Dr. Augustino Ting Mayai who is 
director of research at the Sudd Institute. His major research 
interests include childhood mortality differentials in Sudan 
and South Sudan, applied quantitative methodology, applied 
development research, social accountability and public service 
delivery, and the demography of conflicts and violence.
    Prior to co-founding the Sudd Institute, he worked in a 
wide range of research projects sponsored by the Office of the 
President of South Sudan, the World Bank, UNICEF, Integrity 
Research and Consultancy, Capacity Building Trust Fund, and the 
U.S. National Science Foundation.
    So welcome to all four of you. Please proceed, Mr. 
Prendergast, as you would like.

 STATEMENT OF MR. JOHN PRENDERGAST, FOUNDING DIRECTOR, ENOUGH 
                            PROJECT

    Mr. Prendergast. Well, thank you, Chairman Smith and 
Ranking Member Bass, for your unwavering commitment to the 
people of Africa. On a personal note, and this is rather 
humbling, it has taken me now 30 years to finally identify the 
primary root cause of suffering in South Sudan and the 
surrounding region of east and central Africa.
    The international community is spending upwards of $2 
billion a year in South Sudan, but almost nothing is being done 
about the root cause. In South Sudan, the state has been 
transformed into a predatory criminal enterprise that serves 
only the interests of those at the top of the power pyramid. 
Competing factions of the ruling party have hijacked the state 
itself and are using its institutions, along with deadly force, 
to finance and fortify networks aimed at self-enrichment and 
maintaining power.
    Corruption and violence are not aberrations; they are the 
system itself. This is the definition of a violent kleptocracy. 
Unless it is addressed, we are just treating the symptoms not 
the causes of these cyclical conflicts. Investigations that we 
have conducted with the Enough Project's new initiative The 
Sentry have identified numerous cases of large scale 
embezzlement through procurement fraud, outright looting of the 
country's natural resources, and countless examples of 
unexplained wealth.
    Funds are routinely and sometimes blatantly misappropriated 
and diverted away from South Sudan's central bank. In other 
cases, contracts are awarded to well connected insiders. Money 
is transferred, but the services are never delivered. We are 
going to go public with some of these cases very soon.
    So addressing root causes you need to involve the building 
of leverage, which until now has been a cripplingly and 
puzzlingly insufficient part of international efforts to 
support peace and human rights in Africa. And, I say it is a 
puzzle because when the United States wants to counter 
terrorism or when we want to rein in nuclear ambitions, when we 
want to undermine drug traffickers, a basic element of the 
strategy to achieve these objectives is to build leverage 
through the use of financial statecraft tools.
    Biting enforcement of sanctions, anti-money laundering 
measures, prosecutions, asset seizure and forfeiture, and other 
economic tools of 21st century foreign policy are key 
instruments in securing U.S. foreign policy goals. How strange 
and disappointing it is that these tools are not utilized for 
promoting peace and human rights in South Sudan and more 
broadly in Africa.
    The surest way in our view to build leverage is by hitting 
the leaders of rival kleptocratic factions in South Sudan where 
it hurts the most and the place where they are most vulnerable, 
which is in their wallets. This requires a hard target, 
transnational search of dirty money and corrupt deals made by 
government officials, by rebel leaders, by arms traffickers, 
complicit bankers, and mining and oil company representatives.
    Now the bulk of my written testimony contains very specific 
recommendations for building that leverage to dismantle the 
violent kleptocracy in Juba, but given the time constraints I 
will just focus on a few--two for Congress, two for the 
administration, and one for countering an American war 
profiteer.
    First, Congress can do a lot to focus policymakers' 
attention in the Obama administration, but I will highlight two 
specific recommendations. First is passing the Global Magnitsky 
Act. That is a catalytic piece of legislation, and we commend 
your original sponsorship of the bill, Mr. Chairman. We hope 
everyone on this subcommittee can be convinced over time to 
become a co-sponsor of that bill.
    Secondly, Congress can ensure that the government agencies 
that are responsible for administering and enforcing targeted 
sanctions and other tools of foreign policy of economic 
statecraft, particularly the Office of Foreign Assets Control 
in Treasury, have sufficient resources and staff to create 
peace, for real pressure for peace and human rights.
    Now, moving quickly to the administration to the executive 
branch, they can do so much more to create the leverage 
necessary for the United States to be able to support and 
influence the peace process and undergird efforts of human 
rights that South Sudanese are making. I strongly welcome what 
Ambassador Booth said just a little while ago about corruption. 
Those are great words. We have got to see action.
    First I would say, first specific thing, and again there 
are lots of specifics in the testimony, is that the proper use 
of targeted sanctions is really critical in all of this. We 
need to go after much higher level officials and then seriously 
enforce those sanctions working to freeze and seize the ill-
gotten assets that are identifiable.
    Secondly, some of the South Sudanese who are already 
sanctioned have continued--listen to this. These are guys 
already sanctioned and they are continuing to openly travel and 
bank in international financial institutions. This is 
embarrassing. It completely undermines what we are trying to do 
and makes us into a paper tiger.
    The Department of Treasury's Financial Crimes Enforcement 
Network should investigate these sanctions violations by banks 
and others and begin to discuss consequences with the sanction-
busting countries and banks. FinCen, as it is known, should 
also send out a request to U.S. financial institutions 
inquiring about senior Sudanese officials suspected of grand 
corruption and money laundering. These actions could have a 
chilling impact on the facilitation of corrupt activities 
internationally.
    Finally, a word about a firm run by a U.S. citizen that 
feeds into this violent kleptocracy. Evidence obtained by our 
Sentry initiative appears to indicate that a subsidiary of 
Blackwater founder Erik Prince's new company, Frontier Services 
Group, has arranged to provide services to South Sudan's 
military--despite repeated assertions by FSG that it is not 
involved in security contracts in South Sudan--services that 
would require special authorization from the State Department 
that Prince's company has reportedly not obtained.
    Congress can work to hold these war profiteers to account 
by urging the State Department and the Justice Department to 
thoroughly examine whether Prince and associates have violated 
United States laws and trade restrictions. Thank you for the 
opportunity and your commitments.
    [The prepared statement of Mr. Prendergast follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you so much, Mr. Prendergast.
    Mr. Wells.

   STATEMENT OF MR. MATT WELLS, PROGRAM OFFICER, CENTER FOR 
                     CIVILIANS IN CONFLICT

    Mr. Wells. Thank you, Chairman Smith, Ranking Member Bass, 
members of the committee. I greatly appreciate the opportunity 
to testify today about South Sudan. I focus on South Sudan and 
peacekeeping for Center for Civilians in Conflict, which works 
to improve the protection for civilians caught in conflicts 
around the world. Over the last year I have interviewed several 
hundred civilians affected by the conflict in South Sudan, as 
well as officials from the U.N. peacekeeping Mission, the 
Government of South Sudan, the opposition, and local civil 
society.
    I was most recently in South Sudan in March, investigating 
an attack on a U.N. peacekeeping base that housed 47,000 
internally displaced persons. While there, I interviewed a man 
named Jameis who first fled violence in January 2014 when the 
armed opposition captured his village. He went to Malakal town 
but the conflicts soon forced him to flee again, this time to 
the other side of the Nile.
    Last year, the double threat of food insecurity and attacks 
by SPLA helicopter gunships meant he was displaced once more, 
this time to the U.N. PoC site in Malakal. He thought not for 
the first time that he had found refuge from this conflict's 
relentless targeting of civilians, yet on February 17 and 18, 
intercommunal violence within the PoC site deteriorated further 
when armed attackers including SPLA soldiers entered through a 
cut in the camp's fencing and proceeded to shoot and kill 
civilians and to burn down systematically parts of the camp. At 
least 30 people were killed, more than 120 wounded, many by 
gunshot, and about one third of the camp was destroyed.
    This man's experience is unfortunately far from unique. I 
interviewed women who were subjected to sexual violence as 
their homes were set ablaze, who have survived by eating water 
lilies after fleeing to the swamps only to be pursued even 
there by armed groups, and who after taking refuge in U.N. 
bases have been subjected to sexual violence and other abuses 
merely while trying to collect firewood outside the camp.
    The much delayed return of Vice President Machar represents 
a notable step in the peace process, but it is just that--a 
step, and one that does not in and of itself greatly change the 
risks of violence. The U.S. needs to ramp up its engagement on 
other key issues that will allow people the ability to begin 
rebuilding their lives without fear that armed groups will 
continue terrorizing them.
    In that vein I will speak quickly about five issues in 
particular. First, transitional justice. U.S. support is needed 
to ensure the implementation of all of the transitional justice 
mechanisms outlined under the peace agreement. In interviews 
that we and others have undertaken in South Sudan, civilians, 
regardless of political and ethnic affiliation, have widely 
expressed support for criminal accountability, locally driven 
reconciliation, and compensation.
    Criminal justice can begin to address the impunity that has 
made it acceptable to target civilians. Local reconciliation 
can bridge communal divisions that have been created or 
exacerbated by the conflict and by ethnic targeting. And 
compensation can help respond to communities' urgent needs 
including rebuilding schools and clinics and returning stolen 
cattle, a key source of wealth in South Sudan but also a 
potential driver of violence.
    Second, conflict over land. The U.S. should use its 
leverage to ensure that any decision about the issue of 28 
states is made through an inclusive process that involves all 
of the country's ethnic groups without favoritism based on 
loyalty during the conflict. The February violence in Malakal 
PoC is linked to the 28 states decree issue as is recent 
violence around Pibor and elsewhere.
    Third, an arms embargo, which I have been glad to hear much 
discussion about today. The U.S. should support an arms embargo 
through the U.N. Security Council. Even after the peace 
agreement signing, civilians continue to be targeted in many 
parts of the country, including areas of the country where 
there previously was not conflict. There is little reason to 
believe that abuses will stop simply because the Transitional 
Government is formed.
    An arms embargo will help protect civilians from future 
attack and reduce unlawful attacks by both sides. As was 
mentioned, African countries on the Security Council, notably 
Senegal and Angola, publicly expressed support as have the UK 
and France, yet the U.S. extended any decision about an arms 
embargo until June. The time for empty threats is over. The 
parties to the conflict have been given every chance to stop 
targeting civilians.
    Fourth, security sector reform. U.S. support through both 
carrots and sticks is critical for meaningful reform of the 
SPLA and police. The splintering of the SPLA during the 
conflict has demonstrated that despite U.S. investment the 
military remains less a national institution than a collection 
of armed groups driven primarily by political and ethnic 
concerns and loyalty to specific commanders.
    The U.S. needs to learn lessons from its past engagement 
and ensure that the governments and military take serious a 
SPLA professionalization that builds a national military that 
protects rather than targets civilians.
    Fifth and finally, U.N. peacekeeping performance. The U.S. 
has shown great leadership in working to support and improve 
U.N. peacekeeping. That should continue as the U.N. Mission in 
South Sudan will continue to have a critical role in protecting 
civilians from harm. There are more than 2 million people 
displaced today, including 186,000 in six U.N. bases. The 
mission has saved lives, but it has often been limited in 
projecting force outside these bases. And during the February 
violence in Malakal PoC, UNMISS's response was simply 
inadequate, as we detail in a recent report.
    The U.N. has encouragingly set up a Board of Inquiry. We 
believe it is critical that the U.N. make public a version of 
that report and address any shortcomings identified. In 
addition, if the board finds that specific units failed to 
intervene and protect civilians, the U.N. Secretariat with 
support from member states like the U.S. should ensure 
accountability.
    I would like to again express my appreciation to the 
subcommittee for holding this hearing at a critical moment. The 
peace process has focused largely on bringing back President 
Kiir and Vice President Machar and the armies that fought for 
them. U.S. leadership is critical to ensure the wider conflict 
dynamics are addressed, and that can't wait. Thank you.
    [The prepared statement of Mr. Wells follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Thank you very much, Mr. Wells.
    Dr. Deng.

STATEMENT OF LUKA BIONG DENG KUOL, PH.D., GLOBAL FELLOW, PEACE 
                    RESEARCH INSTITUTE OSLO

    Mr. Deng Kuol. Yes, first of all, thank you very much, and 
one is really honored for having this timely opportunity for to 
make this hearing on South Sudan's prospects for peace and 
security. But it is also the time that you have a lot of 
pressure to keep South Sudan in the radar of your focus, I 
think this is highly appreciated.
    Maybe what I would like to share with you what went wrong 
in South Sudan, are there opportunities or challenges for 
ensuring peace and security. And third, what needs to be done 
to make sure that peace and security will be holding in South 
Sudan.
    I think I want to start first with this issue of what went 
wrong. I think given the fact that United States and 
international community and indeed the people of South Sudan 
they wanted to have the independence, hard-won independence, it 
raises a lot of question why South Sudan has slid to civil war, 
because better understanding of this, the genesis of this 
crisis, is critical for us to look at issues of peace and 
stability.
    That so many people have been putting a lot of myth about 
this conflict, sometimes being described as ethnic politics 
between Nuer and Dinka, and even sometimes it is a power 
struggle within the SPLM, or even sometimes it is being 
described as kleptocracy, as corrupt and then neo-patrimonial 
system of governance, I think for me this mystification of the 
bigger picture.
    South Sudan is a complex issue. It needs be understood in a 
very comprehensive way. And I think because not getting it 
right will--we did some work on these issues about looking at 
conflict from a different dimension. But I think it is very 
important also when we are talking about South Sudan to 
highlight some of the issues, the conditions that resulted in 
why South Sudan has slid into--this is a country that had 
simultaneously three transitions.
    It transitioned from war to peace. It transitioned from 
liberation movement to government and you know in most cases 
could result into a curse of liberation, and then it 
transitioned from one united Sudan to an independent country. 
And they had this shock of loss of their leader and also 
coupled with the fact that they rely on the oil, but which I 
think and then coupled with the weak institutions, and given 
the fact also having a bad neighbor like Sudan. Because these 
are the things that any country subjected to these conditions 
definitely should slide toward--are there opportunities?
    Yes, indeed there are opportunities. One is this peace 
agreement. For me, this peace agreement, we made analysis in 
comparison of the CPA. It managed to address most of the root 
causes of the conflict and it is very important, the fact that 
although the government raised some concern, the people of 
South Sudan they see it as only opportunity. And even the 
Parliament unanimously endorsed this peace agreement. And for 
me, this is very important for us to focus on this peace 
agreement and there are some positive developments happening 
given the fact also the government took some measures 
especially on issues of investigation about atrocities.
    Another important opportunity is the SPLM Reunification 
Agreement. I think, you know, it is very important for us, the 
crisis, the genesis of the crisis started from the SPLM. We 
cannot have democracy without politics. We cannot have politics 
without political parties. And that is why we believe the 
reunification of SPLM it is very important. I know the U.S. 
Government are reluctant to support this reunification of the 
SPLM, and in a sense that will give SPLM the monopoly of power. 
I think it is very important to revisit your look at the SPLM.
    Then one of these challenges, and now this is a few of 
these challenges. This agreement despite the good aspect it is 
elite power sharing agreement. It is addressing the elites. It 
is not addressing the non-state security actors so there is a 
very big gap between this agreement and the people on the 
ground. I think we have to be mindful about that one. Second, 
the issue of the status of the 28 states, the two parties have 
irreconcilable positions but should not obstruct the peace 
agreement.
    Third, the security sector arrangement, we need to refocus 
on it, and then this is a top priority. Third, the final status 
of Abyei. The Abyei Agreement was actually authored by the 
United States and they have given the chance for the Bashir to 
dismantle, to obstruct the Abyei Boundaries Commission, the 
Abyei International Arbitration, and actually people say the 
U.S. abandoned the issue of Abyei and has given even Bashir the 
chance to do. Abyei will be coming a very thorn in the 
relationship between Sudan and South Sudan.
    Third, the unfinish of the CPA. We cannot talk about peace 
and security without talking about Nuba Mountain and south in 
Blue Nile. Fourth, the role of Sudan. Sudan will continue to 
play a negative role in destabilizing, and in actual effect 
because of its diplomatic relation now it has been to defy its 
image to the level that now people want to actually to relax 
their relationship with Sudan.
    Sudan is central and it will continue to destabilize South 
Sudan, and I think even the issue I see to be out of the 
humanitarian, I mean, human rights abuses have been committed 
now as we talk in Nuba Mountain and south in Blue Nile and even 
in Darfur. So we cannot talk about establishing South Sudan 
without focusing on issues of Sudan. Definitely, Sudan will be 
quite important. What can be done?
    First, I believe making the cost of non-implementation more 
than the cost of implementation. The parties should be made to 
believe that by not implementing this peace agreement they will 
pay the price. And I want to appreciate the stand of the 
international community, the African Union, but indeed even the 
threat of sanctions, actually they are actually paying off. But 
let us mention also the peace is beneficial to the people of 
South Sudan. Let us focus on agriculture.
    Second, sequencing peace and then justice and 
accountability, I think that as looking at the fact that 
Government of South Sudan conducted its own investigation about 
atrocities committed in Juba, let us use this one as the basis 
for accountability in the Hybrid Court, but equally let us 
encourage the even the SPLM in a position to conduct their own 
investigation about these atrocities. Let us make them take to 
account for this one.
    Third, the non-state security actors, let us focus on them, 
especially the youth and then the issue of defense. And I agree 
with you, the defense and security sector reform, Abyei, it is 
very important for the U.S. Government because you are the 
author of the peace agreement, to renew your commitment so that 
the people of Abyei actually--because they will not live within 
any other option except to conduct their own referendum.
    And then the last one, a community engagement, let this 
peace agreement be owned by the people, because these elites 
they are actually interested in their own political gains. It 
is when this peace agreement is owned by the people this is 
where we can be able to.
    And lastly, please, South Sudan is so viable, and it is 
very important let us look at the bright side of it. You 
invested heavily, and I believe one day these people of South 
Sudan will rise up to realize their potential. It is an 
investment that is worth it. And thank you very much.
    [The prepared statement of Mr. Deng Kuol follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Smith. Dr. Deng, thank you very much for your testimony 
and for your insights.
    I would like to now, Dr. Mayai.

STATEMENT OF AUGUSTINO TING MAYAI, PH.D., DIRECTOR OF RESEARCH, 
                       THE SUDD INSTITUTE

    Mr. Mayai. Thank you very much, Mr. Chairman. Thank you, 
Ranking Member Bass. I am delighted to be here and be given the 
opportunity to present before you on the current affairs of 
South Sudan, my country. I just returned from there about a 
month ago. My contribution today focuses on the role of youth 
and engendering and sustaining peace and prosperity in South 
Sudan.
    This is particularly essential in the nation where well 
over 60 percent of the total population constitutes persons age 
30 years or younger. And this nation as known to many in the 
world, South Sudan is basically a country of youth who are 
rarely involved in its most important affairs such as 
governance.
    Although a relatively large population of youth, it is good 
for development, as labor economists suggest, it could also be 
a source of tragedy, especially in the absence of strategic 
engagement of this group in productive economic activities. 
This situation is worsened by the fact that South Sudan's 
literacy rate is lower than 30 percent. This means that the 
human capital, it is really low and that affects the country.
    Lack of educational opportunities, high unemployment rate, 
and political subjugation, as is the case in present-day South 
Sudan make youth a liability for a sustainable peace and 
development. As we know, it has been the South Sudanese youth 
who have actually been fighting on both sides of the just 
concluded civil war and prior wars of liberation.
    This seems to be a common experience in most contexts, 
developing contexts, and not age reflected highly in South 
Sudan. As South Sudan returns to normalcy now that Dr. Riek has 
returned for peace to be implemented, how to turn this large 
population of youth into an opportunity will be a tremendous 
test. With properly targeted investment in this group, both 
locally and internationally with the U.S. Government being 
involved, South Sudan could be on its way to prosperity, 
joining the rest of the productive democracies.
    When given opportunity the youths make an incredible 
difference. A perfect example in our context concerned that of 
the Lost Boys and Girls of Sudan who came to the United States 
15 years ago, displaced by a brutal civil war in the early 
1990s as unaccompanied minors, this community that faced a 
hopeless future at the time lived in various refugee camps both 
in South Sudan and the neighboring eastern African nations 
before coming to the U.S., going to Canada, and Australia. 
Prior to resettlement opportunities, thousands of older boys 
joined the war of liberation, with the majority being either 
killed or wounded in action. Between 2000 and 2004, the U.S. 
Government took the initiative to resettle over 4,000 Lost Boys 
and Girls in the U.S.
    Being in a conducive environment and armed with adequate 
economic opportunities to better themselves, the Lost Boys and 
Girls quickly made an indelible mark here in the U.S. and back 
home. In a few years, this group acquired quality education 
from world-class institutions and gained remarkable work 
experience including serving in the U.S. Armed Forces.
    A generation committed to matters of stability back home, 
the group takes education as instruments for personal and 
societal fortification very seriously with as many as 20 
members of this group obtaining doctorates in medicine and 
philosophy, many of them have now returned to South Sudan to 
support peace and development.
    Although confronted with challenges of South Sudan's 
political instability and personal economic opportunity 
responsibilities, the Lost Boys and Girls in their limited ways 
are currently making important contributions back home through, 
for example, the Valentino Achak Deng Foundation, John Dau 
Foundation, School of Public Service at the University of Juba, 
the SUDD Institute and Marol Academy and many other 
initiatives. Likewise, four of the Lost Boys that obtained 
their degrees between 2013 and 2015 returned to South Sudan to 
teach and provide services for the people of South Sudan, 
earning less than $500 a month.
    Benjamin Machar, a colleague of mine, defended his 
dissertation a week ago, he is now on his way to South Sudan to 
support development there. With sustainable peace and increased 
support from the U.S. Government and South Sudan and its other 
partners, the Lost Boys and Girls can continue to significantly 
impact lives in South Sudan.
    As the agreement on the resolution of conflict in South 
Sudan gets implemented in the next few years, there will be 
need to support the Government of South Sudan in skills 
development and strategic allocation of those skills across 
different sectors. With support from the U.S. Government, the 
Lost Boys and Girls who have already acquired both necessary 
academic skills and sufficient work experience in the U.S. 
could mightily assist in this endeavor. In particular, the U.S. 
Government should rejuvenate the skill transfer program 
instituted in 2006. That taps into the skilled Lost Boys and 
Girls community to augment institutional and peace building 
programming in South Sudan.
    Gladly, a former U.S. Representative, Frank Wolf of 
Virginia, was one of the first U.S. officials to recognize this 
necessity, introducing the return of the Lost Boys and Girls of 
Sudan Act in the House in 2007. Revisiting this program is 
timely if the U.S. is to institute a speedy and sustainable 
impact in South Sudan.
    This initiative not only fosters institutional strength and 
stability for an incredibly distressed nation, it also paves 
ways for healthy leadership successions, encourages the youth 
to have a voice in subnational and national policy dialogues, 
and amplifies young people's involvement in local development 
and peace programming. It places young people at the center of 
highly desired progress, subsequently creating a sense of 
responsibility and ownership of their future.
    What is more assuring that many of the Lost Boys and Girls 
are ready to return home in pursuit of peace and prosperity, 
but their return is not without economic hurdles as many now 
have families to cater to and educational loans to repay. 
Therefore, a project similar to the Yes Youth Can in Kenya that 
was financed by the U.S. Government could be replicated in 
South Sudan.
    In a nutshell, Mr. Chairman, as peace partner the U.S. 
Government may wish to consider an increased strategic 
investment in skill transfer programs and the greater 
involvement of youth and institutional initiatives, building 
initiatives in South Sudan. The U.S. Government may also wish 
to extend more support through educational and policy 
institutions such as School of Public Service at the University 
of Juba, the SUDD Institute, Center for Peace and Development 
Studies, and Ebony Center for Strategic Studies. With these few 
remarks, thank you very much.
    [Mr. Mayai did not submit a prepared statement.]
    Mr. Smith. Thank you so very much for your testimony, for 
your recommendations and suggestions, and for referencing one, 
an idea that was proffered by Congressman Frank Wolf who is a 
good friend of mine and certainly a great friend of Africa.
    Let me just ask a couple of questions. Before I do, I just 
want to recognize that David Abramowitz is here. David has been 
a longtime champion of human rights, combating trafficking, he 
is the managing director of Humanity United, and I want to 
thank him for his lifelong commitment and for being here today 
and for, as he always does, offering very valid recommendations 
to all of us on how do we proceed on these important issues. He 
was chief counsel to the Democratic side of the Committee on 
Foreign Affairs for about more than 10 years, so thank you, 
David, for being here.
    I would like to ask a few questions and then yield to my 
good friend and colleague from California.
    Mr. Prendergast, you talked about the one factor not being 
addressed. I raised it with both Ambassador Booth earlier today 
as well as with Mr. Leavitt, and that is this unchecked greed. 
And I think, you know, and all of you might want to speak to 
this. You used multiple synonyms, each one, with varying 
degrees of intensity, certainly looting frenzy, violent 
kleptocracy, looting and killing with impunity. And I think, 
you know, human nature being what it is, we find in countries 
all around the world very often at the core root besides just 
an attraction to power there is often this unbridled wealth 
that certain people are able to accumulate when they abuse 
power.
    If you could speak to how well or poorly the administration 
is doing. You made very specific recommendations including 
FinCEN, the access to financial institutions in terms of money 
laundering and the like, you might want to elaborate on that. I 
asked Ambassador Booth earlier about your program whether or 
not they were plugging in, how well or poorly has that occurred 
in your opinion? Are they looking to you for recommendations? 
Because it seems to me you take out the financial incentive, 
the ill begotten gains from abuse financially, it certainly 
might lead to a better governance. Maybe not great governance, 
but a better governance.
    Secondly, Mr. Wells, you mentioned criminal justice, and 
you might want to elaborate how that might proceed since so 
many acts, barbaric acts have occurred. There are so many 
victims. The case study you cited, which I repeated in part in 
my opening, I mean she said, and I thought it was interesting, 
Rebecca, that she is not sure if she wants them prosecuted but 
she wants to know who they are. And then you do go into the 
idea of a reconciliation process. Perhaps all of you might want 
to elaborate on what that might look like. Of course the wounds 
are still fresh, so justice certainly is something that is on 
the minds of many people, so if you could on that.
    Dr. Deng, you made a very excellent point about the cost of 
non-implementation must be higher than implementation. If you 
might want to elaborate on what that cost entails, to whom? Are 
you talking about individuals, to the government itself? And 
you also made an excellent point about ensuring ownership of 
the peace agreement by the people themselves. How exactly does 
that occur? How do you bring the people who are, do they need 
to be the beneficiaries or as they have been of recent the 
date, the victims of bad governance and certainly this 
violence, how do you bring them into that equation?
    And all of you, if you might want to, because I asked the 
question earlier of Mr. Leavitt, the whole issue of the health 
and well being of the Sudanese people. It seems to me that I 
was a little disturbed that Mr. Leavitt couldn't say chapter 
and verse this is what the vaccination program looks like, we 
are doing this despite the difficulties, there is a commitment 
here to vaccinate children against childhood killers, because 
we all remember the child survival revolution. One of the key 
pillars, one of them was oral rehydration therapy, and he did 
give an example of a young child who seems to have gotten that 
because of the huge dehydration issues.
    But vaccinations are one of the wonders of the world, and 
if we don't adequately pay attention to that--and again with 
deep respect to Mr. Leavitt, he will get back to us I am sure--
that should have just rolled off his lips that this is what 
they are doing on childhood vaccinations. And in like manner, 
since Sudan is part of the scaling up program for the first 
1,000 days, that is to me the most transformational program 
ever for reducing maternal mortality in those places where 
women got the nutrition and the food as well as their unborn 
children and then their newly born children, maternal mortality 
has dropped like a rock.
    So it needs to be prioritized and I am not sure now whether 
or not it is, perhaps you have some insights on that as well. I 
have other questions, but I will yield to Ms. Bass after those 
questions are fielded. Thank you.
    Mr. Prendergast. Thank you very much, Mr. Chairman. I think 
the first point I would make is that kleptocracy, the idea that 
a system of government--in our country, in many countries 
around the world we expect government to secure the rule of 
law, to deliver social services and all of the things that 
people expect. In a number of countries around the world, where 
corruption is no longer an aberration but is actually the 
purpose and point of the system, unless there is an alteration 
of the calculations of those that are in power in some way--and 
it is hard to make those alterations and calculations purely 
from internal efforts.
    People work assiduously like the two folks on the panel 
here from South Sudan, to my left, who have with many, many of 
their colleagues worked for so long for human rights and peace 
and democracy and transparency in South Sudan, but they need 
help from the outside as well. And I think that accountability, 
basic accountability is what so many, when all of us spend time 
in South Sudan, so many people are screaming for, 
accountability for the commission of war crimes and 
accountability for the financial crimes that have left a 
country that is one of the most fabulously wealthy in natural 
resources completely and totally impoverished. Everything that 
wasn't nailed down has been externalized, offshored by the 
leaders of these two factions in a variety of, whether in bank 
accounts or in opulent houses and all the other kinds of things 
that you do when you have that kind of money.
    So here is the problem, and I think that Ambassador Booth 
sort of put his finger on it unwittingly. They always talk 
about the importance of reining in corruption, they always talk 
about the importance of accountability, but when it is time to 
act, when it is time to vote for the arms embargo, when it is 
time to impose a targeted, biting, enforced sanctions on 
higher-level officials, when it is time to begin to investigate 
banks for money laundering for some of these institutions and 
individuals in South Sudan and their international 
collaborators, when it is time to do that, other competing 
priorities emerge and people say, well, wait a minute, we don't 
want to upset the apple cart. Riek is about to come back to 
Juba. We have got to do this, we have got to do that. There is 
always something else that takes just a little higher priority 
than taking the action.
    Well, you do that long enough and suddenly, or over time, 
the parties act like they expect us not to do anything. They no 
longer take our threats seriously. We become the paper tiger 
that is written about so many times throughout history. And I 
think that is where we are right now in South Sudan, frankly, 
is we are the paper tiger. Threatening to do this, threatening 
to do that but never imposing.
    And then when we actually impose sanctions on a few mid-
level officers, we don't enforce them, so they are traveling 
around the region banking, doing whatever they want to do with 
no consequence. Our inaction emboldens these folks to continue 
to commit atrocities on the ground. Violence is still occurring 
in a number of the states throughout South Sudan irregardless 
of the machinations politically in Juba. People need to be held 
accountable for that.
    So the only way, in sum, the only way to reverse that 
dynamic is for us to start acting, to choose certain high 
profile, important actions that we can take that can begin to 
introduce a sense of accountability, to begin to chip away at 
the impunity that these folks feel in Juba that they can do 
anything they want to do, they can take anything they want to 
take, and they can kill anyone who they want to kill with 
absolutely no consequence.
    Mr. Wells. Thank you, Mr. Chairman.
    On criminal justice and accountability, I think the 
positive thing is that the peace agreement in many ways gives 
us the foundation to address these issues through calling for 
the establishment of three mechanisms in particular, the Hybrid 
Court, the Truth and Reconciliation Commission, and the 
Compensation and Reparation Authority. So the foundation is 
there. What is key now is starting progress, to get these 
institutions set up and working.
    On the Hybrid Court, you know, and criminal accountability 
in particular, there was a great study done by the South Sudan 
Law Society last year that showed that 93 percent of people 
that they interviewed in a large study favored criminal 
prosecutions for crimes that had been committed. There is an 
overwhelming desire amongst the South Sudanese to see criminal 
accountability. And the African Union has taken a notable and 
important leading role to that end. They will be in charge of 
helping set up the Hybrid Court.
    What is critical to see from the U.S. is support for that--
technical assistance, financial assistance--so that the Hybrid 
Court can begin to do its work. And right now what we really 
need to see is the collection and preservation of evidence. 
Each day that goes by we are losing the ability to access much 
of the evidence that is needed. So right now it can't happen 
fast enough to get the process started for collecting and 
preserving evidence.
    On the reconciliation point, you know, in interviews that 
we have done around the country, the key thing that people say 
is that this has to happen both at the national level and at 
the local level. It is not enough to set up a Truth and 
Reconciliation Commission that sits in Juba and focuses on the 
elite. We need a process that engages people around the country 
that addresses not only the national conflict dynamics that my 
fellow panelists have talked about, but also many of the local 
factors that are driving inter- and intracommunal violence.
    And the third thing is the Compensation and Reparation 
Authority that is often forgotten about. We talk a lot about 
criminal accountability, we talk a lot about reconciliation, 
but we don't talk about this issue of compensation and 
reparations. And for many people, getting some sort of 
immediate assistance given the fact that their villages have 
been burned, their schools have been destroyed, their clinics 
have been destroyed, many of them have had their crops 
destroyed, their seeds for future harvests destroyed, and so 
there is an urgent need to allow people to begin rebuilding 
their lives.
    There is a lot of discussion around how to best set up this 
Compensation and Reparation Authority, and I think it needs to 
ultimately follow two tracks. One that longer term perhaps 
addresses individual reparations, but that more immediately 
focuses on collective issues, how to help villages begin to 
rebuild their lives, and how to address issues like the huge 
amount of cattle that have been stolen throughout the conflict 
and that will inevitably drive violence going forward.
    Mr. Smith. Well, can I just ask you before going to Dr. 
Deng, on the Hybrid Court did you just say that the U.S. is not 
providing money?
    Mr. Wells. No, I am saying they need to provide money. 
There has been, I think, a statement of $5 million, I think, 
they expressed last year that they would provide for the Court. 
Financial assistance is incredibly important. We also need to 
see from the U.S., given how many people here have experience 
with hybrid courts or international criminal justice more 
generally, the provision of technical assistance to help work 
on things like again the collection and preservation of 
evidence, how to best protect judges and investigators and 
prosecutors that would be involved in this, how to set up a 
witness protection program because ultimately people who come 
forward will face retaliation, so how can we set up witness 
protection. I think the U.S. has a critical role to play in 
working with the AU on all of those issues.
    Mr. Smith. But, you know, there are people, and we have had 
David Crane testify several times before this subcommittee 
about the Special Court for Sierra Leone, which did magnificent 
things and Charles Taylor is now serving 50 years because of 
that court.
    If there is something more that we need to be doing, Ms. 
Bass and I were just talking, perhaps we need to do a letter or 
to be in touch again with the administration about making sure 
that money does flow, because you are right. As time goes on, 
witnesses are lost, information, memories fade, and then the 
fear of retaliation without the right kinds of checks, 
including for prosecutors and judges, you know, I am not sure 
myself what the parameters are in terms of how many potential 
people would be prosecuted.
    How high up do you go and how low, I should say, on the 
people who have killed, maimed, do you actually go? But we will 
follow up and we will do it in a totally bipartisan way because 
we are on one accord, right. I think that is----
    Mr. Wells. Thank you.
    Mr. Smith. Thank you.
    Dr. Deng.
    Mr. Deng Kuol. Yes. Thank you very much, Mr. Chair, for 
raising these issues. I think this is your non-implementation 
to be more expensive than implementation. I think this is very 
critical. One, it is very important to focus on the 
implementation of peace agreement. This is the desire of the 
people of South Sudan.
    And the leaders have been entered into this agreement 
lukewarmly but not fully with all calculation. And I think that 
it is very important that we should make sure for them to fill, 
to implement this agreement they have to pay the price. And the 
good thing that we have tools available already. For instance, 
I think the very fact that the African Union and IGAD, together 
with the international communities through the United Nations, 
they have agreed to make this the choice of international 
community which is accurately reflecting the will of the people 
of South Sudan. That by itself is a very important tool that we 
should capitalize on.
    Second, I think the parties they know that they have 
committed crimes and these crimes are documented, and it is 
very important to focus on this African Union Commission of 
Inquiry. It is a very important document that could be used to 
make them believe that non-implementation this is the 
consequence. So even without, even with implementation.
    And third, you have this the United Nations experts panel, 
they have been collecting very good information about some of 
them including the economic crimes. And as we talk now, the 
people of South Sudan, they know in details who did what, and 
these are the things that we should continue documenting them 
and to be available.
    We were talking about human rights abuses, but I think the 
issue of economic crimes, it may not be necessary to add the 
Anti-Corruption Commission, but even we can focus on having a 
special court for these crimes. The other one, the very fact 
that the Government of South Sudan collected some information 
for the atrocities, we have seen as a positive thing.
    But this information, information about atrocities, they 
have not released this information and this should be made 
public. And actually, from the information we have there is 
SPLA, they did their own investigation. The police did 
investigation, the Minister of Justice, and also the President 
himself. But these documents are not made available and these 
are the homegrown initiative in order to achieve justice. 
Because those factors, I think these are the tools that we can 
use in all that.
    But importantly, and I think this is something I did not 
mention. Let us make also scenario analysis. What if the peace 
agreement fails? Because we should not be taken by surprise. 
They cancel that peace--that this peace agreement may fail is 
quite high. Should we be active or should we stop learning as 
of now? Because site plans are very important, this analysis is 
very important for the parties to know the consequence of non-
implementation.
    The other side of it is making the peace agreement 
attractive, and this is where I believe that we should learn a 
lot of things. The Government of South Sudan, for example, they 
are involved in what is called Comprehensive Agricultural 
Development Plan. This actually is, I think, supported by JICA, 
by--and this is an area that we need to look. When you talk 
about the youth, especially the large population, it's about 
the whole of agriculture, creating opportunities. And this is 
an area that we should make peace agreement attractive.
    We may need to invest also in the two leaders, I mean, 
Salva and his Vice President, how to work with them; the way 
that they enter into this initial relationship is going to be 
very fragile, and we need to invest in making them, make sure 
that they are working for the good of the people of South 
Sudan. If you go for the view of some it is strategy, that they 
want to isolate each other, it is by the end of day the people 
of South Sudan will pay.
    So this is what I meant by making non-implementation more 
expensive than the--let me come also the issue that you raise 
about the issue of community engagement. There is an 
organization called CEPO, Community Empowerment for Progress 
Organization. When I was in the Center for Peace and 
Development we started having what can we do in order to make 
the engagement of the people in this peace agreement; let them 
accept the information, but importantly for them to know even 
their responsibilities.
    And actually, when we said the non-implementation to be 
more expensive, it is when the people themselves take it upon 
themselves and to let these people to be accountable. What do 
we mean, for example, one of the things that we need to be done 
for this peace agreement, let the public know that this what it 
means for them and for them to follow who is not implementing. 
Because these elites are relying on these people, but these 
people are equipped--so this is one of the problems, quite 
complex, a problem of community empowerment problem by this 
organization.
    That is, actually I am working with them, advising them 
also on this issue of--on the transition of justice, I think I 
talked about this sequencing, and it is very important not to 
rush for accountability and justice who we don't have the good 
platform. The process should start slowly while we are creating 
environment for justice and otherwise will be--we have learned 
from the experience of Kenya.
    What should be done--here is an issue that these people, 
they commit themselves to peace. And this is going to be a good 
foundation for issues of justice and accountability. But in the 
process also, we should start immediately documenting, 
documenting the information about the atrocities committed and 
especially what John said about economic crimes. For me these 
are the things, these are, you can really get the people. Get 
with those one, and the other one actually come slowly.
    So let the--and then the most important thing is when you 
come for election. For me, election is a recipe for another 
crisis in South Sudan. Those are the sources really for 
election that we are invested. Let us invest in making sure 
they are laying the foundation for justice and accountability, 
but do it slowly in a way not to spoil the very fact that we 
need to focus on the--let me stop here.
    Mr. Mayai. Thank you again, Mr. Chairman. Glad that you 
raised a question related to health. South Sudan, for some that 
might not be aware of its health statistics, has the highest 
mortality rates in the world. And we are talking of statistics 
that were collected at post-conflict time. Think of it now that 
the conflict has been going on for the last 2 years and so many 
people affected across the board. We think that the situation 
has worsened. Many people have died as a result of this 
conflict adding to the prevailing conditions, poor health 
conditions.
    But I also want to bring you to the attention that even 
with peace, health conditions remain to not be changing much. I 
conducted a study. I am a demographer in training, and I 
conducted a study that looked at the relationship between 
health and spending, the public spending.
    JP, I think you should know this. What we found with that 
there was no relationship in South Sudan. The more money you 
invest in health, basically did not make much of a difference. 
What this means is that the money that gets invested in health 
doesn't really get spent on health. It goes somewhere else. So 
that is the relationship between corruption and health.
    What is it that is going on now, UNICEF. The U.N. is still 
spearheading providing services in this area. UNICEF recently 
was campaigning for vaccination for children. They were 
claiming to be pursuing over 300,000 children which is a big 
deal, and hopefully they are undergoing that.
    But again this leads us back to this, you have the U.N. You 
have the U.S. coming there temporarily, but how do you sustain 
all these activities down the road, 5 years, 10 years down the 
road? That brings us back to the idea of capacity that the 
return to the Lost Boys and the Lost Girls is called for; that 
they should go back and be doctors and be the administrators in 
different capacities. Thank you.
    Ms. Bass. Since you just finished on that note, Dr. Mayai, 
and it was very nice to meet you in South Sudan and then to see 
you here as well. You know, in the last panel I raised the 
question about the lost men and women going back, and part of 
the reaction was, well, that could create some problems because 
the existing leadership would not take too kindly to that. But 
I would like to know your opinion of that.
    You mentioned doctors, you mentioned administrators. It 
just seemed to me, but, you know, obviously I was only there 
for a couple of days, it didn't seem like there was an 
abundance of folks on that level, so that is why it didn't seem 
to me like it would create more tension. But I would like, you 
know, to know your thoughts on that.
    And then while you are thinking about that, Mr. 
Prendergast, you started talking about, which I want more 
information about, the company that you mentioned and their 
involvement on the negative side. And, you know, I mean that is 
one of the benefits of our country, right, I mean, we can hold 
people accountable. And so I want more information about that. 
Now I have your full testimony. I know what you gave was 
abbreviated. If it is here, you know, I will look at it, but I 
wanted you to talk more about that.
    You also talked about the wealth, and I guess that wealth 
is overseas because I don't know that it is there. I have 
always been leery about sanctions and especially targeted 
sanctions, because to me it is just difficult to see how they 
have any muscle behind them, but then, you know, you talk about 
the wealth, so I guess the wealth is being hidden overseas.
    But, you know, sanctioning somebody to tell them that they 
can't come to the United States, it is hard for me to 
understand how that really, you know, has some punch behind it. 
So I would just like to ask those two questions right now, and 
then I know they are going to pull us away again for our last 
votes.
    Mr. Mayai. Thank you very much, Ranking Member Bass. This 
is an important question, and it would have been great if 
Ambassador Booth was here while I respond to this question. 
Before I get into more details into this I want to reference an 
effort made by Dr. Luka Biong in 2011 to return about 11 Lost 
Boys from here to provide support for an analysis that was 
conducted in the Office of the President. Eleven of the Lost 
Boys that went, eight remained. They were supported for a year 
by the Office of the President with Dr. Luka Biong advising the 
team, and eight of the Lost Boys decided to stay. So that 
speaks to something.
    But let me say this. There is no question of challenges in 
terms of reception, but those questions are not related to what 
Ambassador Booth really raised earlier and that is the question 
of resistance. The question of resistance should be looked at 
from this perspective. South Sudan does not have sufficient 
economic resources to hire highly qualified individuals, people 
with families abroad, people basically that have loans to pay. 
South Sudan does not have that, but that does not translate 
into South Sudan not wanting these people to work in different 
arenas.
    I just made a reference to the 11 members of my group that 
went back, I also would like to make a reference to the group 
that was recruited in 2006 on the skills transfer program. 
Majority of these people did not come back. Some of them became 
ministers and GGs in the government. That also shows the 
commitment of the government to integrate those individuals.
    The problem is that the few that returning and get 
integrated are not enough to exert that effort that is needed 
to change the system. So I think we should not be too 
pessimistic about the government actually trying to----
    Ms. Bass. Well, how is that viewed from the other side? I 
mean, you know, that is great what you just said, but then are 
they viewed as taking sides? How does the other faction view?
    Mr. Mayai. The other faction as in which?
    Ms. Bass. Oh, Machar. I mean, you know, the folks that 
split from the government.
    Mr. Mayai. Each political group has its own opinion.
    Ms. Bass. I am sorry?
    Mr. Mayai. I mean, each political group has its own 
opinion. And I think----
    Ms. Bass. So at this point in time, if people were to go 
back when the government is being reformed, restructured, and 
both sides are there, would the folks that go back be viewed as 
taking Kiir's side?
    Mr. Mayai. I don't see that because both sides have members 
here.
    Ms. Bass. Oh, okay. Okay.
    Mr. Mayai. And across the board here and Australia and 
Canada, and the recruitment should be fair enough to include 
all the qualified individuals to be able to go back and work. I 
don't think that would be a problem.
    Ms. Bass. Okay. Thank you. And I know that they have called 
votes now, so we have just a couple more minutes.
    Mr. Prendergast. Thanks. Okay, four very, very quick 
points. First, on the Frontier Services Group, we will give you 
all the information we have----
    Ms. Bass. Thank you.
    Mr. Prendergast [continuing]. So both of you can have that.
    Number two, The Sentry, which is this new initiative we 
have begun, George Clooney and I have hired a team of financial 
forensic investigators and they are following the money all 
throughout east and central Africa but into the international 
system. Not to try and blame folks on the ground, because it 
takes two to tango in corruption.
    Ms. Bass. Right.
    Mr. Prendergast. So we are looking at the banks, the mining 
companies, the oil companies, arms dealers, logistics 
companies, anyone who is facilitating or profiting from human 
misery. That is the agenda.
    Ms. Bass. I am assuming this is our money too, right? This 
is our money, meaning U.S. taxpayers' money?
    Mr. Prendergast. Oh, that is being taken? Yes.
    Ms. Bass. Yes.
    Mr. Prendergast. So there are lots of different ways that 
these guys make money. Most of it is through the looting of the 
natural resource wealth.
    Ms. Bass. Oh, okay.
    Mr. Prendergast. So that the vast preponderance of the 
money that is being stolen from east and central Africa is 
gold, oil, diamonds, all the rest of it. But then they steal 
anything that isn't like--so the aid money that comes in. 
Contracting is a major thing, especially military contracting, 
you know, all that kind of stuff.
    So we have been sharing information with Treasury, Justice, 
and State, and other governments that can potentially act. We 
will, in about 2 months, begin to come up here and start 
briefing you guys on the dossiers that we are building on a 
number of these networks, and then we will go public later on 
in the year.
    Third, where did the wealth go? It is not millions, it is 
billions. I mean, the money just poured in. Remember, before 
independence there was a 6-year period when there was an 
interim administration. When that interim administration was 
stood up in 2006, the oil wealth sharing deal went into effect.
    So literally billions of dollars began to come into the 
coffers of a new administration that was administering the 
South Sudanese territory with no checks and balances. Of course 
most of it disappeared. None of it went into services, none of 
it went into infrastructure. It, as you said, somebody said in 
this thing, human nature. It is not surprising. It has happened 
all over the world. This is not a uniquely South Sudanese or 
African or any other thing. This is normal. If you don't have 
the institutions then you don't have the oversight. It is going 
to happen.
    So slowly, steadily, and these guys have talked about the 
very, very important parts of this peace deal that create these 
oversight mechanisms, that will begin to help. But in the 
meantime, and this goes to your point about why do you use 
targeted sanctions. Well, one has to assume that if there are 
no consequences for stealing millions, in fact billions, of 
dollars, it is going to continue. So if you apply very 
specifically targeted sanctions on folks that have benefited 
dramatically from the ill-gotten gains, the money that was 
meant for the people of South----
    Ms. Bass. Like freezing the money.
    Mr. Prendergast. Freezing that money, seizing it----
    Ms. Bass. Okay. That makes sense, right.
    Mr. Prendergast [continuing]. And returning it. That is the 
ultimate objective.
    Ms. Bass. Yes. Sure.
    Mr. Prendergast. Return it to the people of South Sudan, at 
least some percentage of it. You could fund the entire 
development budget of South Sudan for the next decade with some 
of the money that was--some of it. So I think that is a really 
important, and that is fundamental to our theory of change.
    If you create those consequences for corruption, if you 
create those consequences for mass atrocities you begin to 
affect the calculations of people. That is the beginning, and I 
think that is our role as outsiders. And we can support folks 
on the inside, Augustino and Luka and all of their allies and 
organizations, but on the front lines of working on these 
problems at least the thing we could do is to make sure that 
when that money goes outside the country we can grab it----
    Ms. Bass. Right.
    Mr. Prendergast [continuing]. And say no, it has got to go 
back. It is not fair that people are living in houses with 
swimming pools all over the world, some small group of those 
people, and their kids are going to the best schools around the 
world, and there is a famine in the country from which they 
came.
    Ms. Bass. Right.
    Mr. Prendergast. That is just ultimately unacceptable.
    Ms. Bass. Thank you. Thank you.
    Mr. Smith. I think we are out of time, but please. You 
know, you do want to answer? Sure. I apologize deeply. Thank 
you for your insights, counsel, any additional things you would 
like to provide to us, anything that prompted, you know, like a 
further answer to that question posed by Ms. Bass?
    Thank you. The hearing is adjourned.
    [Whereupon, at 5:10 p.m., the subcommittee adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
